<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 111-557]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-557
 
  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2010

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-434 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk





















                                CONTENTS

                              ----------                              

                            FEBRUARY 2, 2010

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, A U.S. Senator From California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3

                               WITNESSES

Blair, Dennis, USN (RET.), Director of National Intelligence.....     7
Panetta, Leon, Director, Central Intelligence Agency.............    11
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation..................................................    12
Burgess, Ronald, USA, Director, Defense Intelligence Agency......    13
Dinger, John, Acting Assistant Secretary of State for 
  Intelligence and Research......................................    15

                         SUPPLEMENTAL MATERIAL

Prepared statement of Dennis Blair, USN (RET.), Director of 
  National Intelligence..........................................    44
Letter from Ronald Weich, Assistant Attorney General, U.S. 
  Department of Justice..........................................    90
Prosecuting Terrorism Cases in the Federal Courts, 2009 Update 
  and Recent Developments........................................   126
Examples of Leaks in Federal Terrorism Cases.....................   131
Prepared statement of Hon. Russ Feingold, a U.S. Senator from 
  Wisconsin......................................................   134


  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2010

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Rockefeller, 
Wyden, Mikulski, Feingold, Whitehouse, Bond, Hatch, Snowe and 
Risch.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order. The 
committee meets today in open session to receive the 
coordinated analytic assessment of the intelligence community 
of the threats facing the United States.
    We welcome our witnesses, Admiral Dennis Blair, the 
Director of National Intelligence, who will provide a summary 
of the written statement he has submitted on behalf of the 
intelligence community; the Director of the Central 
Intelligence Agency, Leon Panetta; the Director of the Federal 
Bureau of Investigation, Bob Mueller; the Director of the 
Defense Intelligence Agency, Lieutenant General Ron Burgess; 
and the Acting Assistant Secretary of State for Intelligence 
and Research, Ambassador John Dinger.
    This hearing presents an annual opportunity to focus on the 
threats our nation faces, and it provides a rare forum for the 
public to receive strategic intelligence analysis. I think that 
right now the top threat on everyone's mind is the heightened 
terrorism threat, especially against our own homeland. The 
committee has held hearings in the past two weeks to review the 
Christmas Day attempted attack by Umar Farouk Abdulmutallab and 
the Fort Hood shootings by United States Army Major Nidal 
Hassan. We have also reviewed the attack on CIA's Khowst base 
in eastern Afghanistan on December 30th, the most deadly attack 
against CIA personnel in decades.
    These three events are reminders of the ongoing threat the 
nation faces from within and without and the challenges and 
dangers with which the intelligence community must deal on a 
daily basis. We've been briefed on the continuing terrorist 
threat, and I want to thank Director Mueller for our discussion 
yesterday. I received a lengthy follow-up briefing on the 
status of ongoing terrorism investigations and intelligence 
we've received as part of those investigations.
    I know this is a very sensitive matter and will ask if 
members who have questions relating to counterterrorism 
operations will hold them until we can go to a classified 
session at the end. The written testimony submitted to us today 
provides an important reminder stating that--and I quote--``the 
recent successful and attempted attacks represent an evolving 
threat in which it is even more difficult to identify and track 
small numbers of terrorists, recently recruited and trained, 
and short-term plots than to find and follow terrorist cells 
engaged in plots that have been going on for years.''
    Our committee stands ready and willing to provide the 
tools, gentlemen, you need to make sure our counterterrorism 
efforts are the very best they can be. Despite the Christmas 
Day and Fort Hood intelligence shortcomings, the intelligence 
community has thwarted numerous terrorist plots and apprehended 
several suspects in 2009. And I'd like to tick a few off: al-
Qa'ida operative Najibullah Zazi, living outside Denver, was 
identified through good intelligence work as having trained in 
Pakistan and conspiring with others to detonate a bomb in the 
United States. Two of Zazi's associates were arraigned in 
January, and his father also has been charged.
    Secondly, Chicago-based David Headley was identified for 
his involvement in the Lashkar-e-Taiba attacks on Mumbai in 
2008 and for his connection to a plot to bomb a Danish 
newspaper. Three, 14 people were charged in Minnesota this year 
for recruiting Somali-American youth to travel to Somalia, 
train and fight alongside terrorist groups. In October, Tarek 
Mehanna was arrested in Boston and charged with plotting to 
attack shopping malls and seeking out terrorist training.
    In September, Hosam Maher Husein Smadi was arrested for 
plotting to bomb a Dallas skyscraper. And earlier in the year, 
Daniel Boyd was identified as having traveled to terrorist 
training camps and plotting an attack on U.S. military 
personnel at the Quantico Marine Base. He was charged, along 
with six others, on charges that include conspiring to provide 
material support to terrorists. So clearly, there have been 
both counterterrorism successes and a few failures. Also clear 
is that the threat to the homeland is high and that terrorist 
groups have identified ways of getting operators and 
facilitators into the country without raising suspicion.
    Let me shift from terrorism to the topic that DNI Blair 
highlights in his written testimony, the threat to our 
government, public and private sector from cyber espionage, 
crime and attack. Director, your description of the problem is 
very blunt, and I believe it to be accurate. The need to 
develop an overall cyber security strategy is very clear. This 
committee has carefully examined cyber security through five 
hearings in the past year, carefully reviewed various cyber 
attacks and penetrations from foreign actors and appointed a 
cyber task force of three members--Senators Whitehouse, 
Mikulski and Snowe--to conduct a six-month analysis of our 
government's current plans. The task force will be reporting to 
the full committee shortly.
    It is my belief--and I think the belief of others--that 
certain nations represent serious cyber attack potential to our 
country. And I believe that robust diplomatic efforts should be 
made, with the goal of effecting international agreements among 
key actors regarding cyber security. The time has come to look 
at the value of a cyber treaty with built-in mutual assurances 
of behavior. It is noteworthy and commendable that the State 
Department has, for the first time, demarched another country 
for its cyber activity.
    It is also worth noting that this country has stated its 
willingness to cooperate internationally on these matters. 
There are far more developments around the world that threaten 
the national security interests of the United States. The past 
year saw a Taliban surge in Afghanistan that led to the 
President's decision to shift strategy and increase troop 
levels. Pakistan continues to be an uneven partner in our 
counterterrorism and counterinsurgency efforts. Somalia and 
Yemen are failed and failing states that require enormous 
attention.
    These and many other threats are outlined in the DNI's 
testimony. So now, let me turn to the Vice Chairman, with whom 
I have had the pleasure of working this year. And I thank him 
very much for his cooperation on all matters. Mr. Vice 
Chairman.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Madam Chair, let me welcome our 
witnesses and thank you for the very open and generous way that 
you and your staff have worked with the minority. We believe 
that this is the way we can achieve what we're supposed to 
achieve--bipartisan, nonpartisan oversight of the critically 
important intelligence community.
    This hearing today comes at a time where the importance of 
the national security threats are currently highlighted by 
recent events.
    From the terror plots disrupted this fall by the FBI to the 
deadly attacks at Fort Hood and the Little Rock recruiting 
station to the failed attack on Christmas Day, we have seen an 
alarming number of terrorist threats, in particular within and 
against the homeland, and they're being carried out.
    As members and witnesses are aware, this will be my last 
annual worldwide threat hearing, as I intend to depart from the 
Senate upon the completion of the 111th Congress. No applause 
please. Ironically, I believe we find ourselves, today, in the 
same place we were in when I first joined the committee years 
ago--analyzing deficiencies within the intelligence community 
to make recommendations for changes that will help us better 
prevent plots and connect the dots.
    So as we embark on our final year together, I offer these 
thoughts for the path forward over the next year and into the 
future. First, our priority as congressional oversight 
committee members and your constant challenge as the leaders of 
the IC is to focus on threats to the homeland and to our 
interests overseas. Al-Qa'ida, its affiliates and other 
terrorist organizations today have a global reach. In Pakistan, 
Afghanistan, Algeria, Yemen, the Horn of Africa and elsewhere, 
terrorist operators train and prepare for attacks against us 
and our allies.
    Our focus must be on these entities wherever they operate. 
This is a global conflict, and yes, it is a war--a war of 
terror these radicals have declared on America and the West. 
The intelligence community must lean forward in this war, and 
we on congressional oversight committees must back you up. When 
we ask you, behind closed doors, to be aggressive, and we do 
that quite freely, it is our responsibility to stand behind you 
when the doors are open and to support your actions when they 
are under the spotlight. And I pledge we will try to continue 
to do so.
    At the same time, our committee will hold the IC 
accountable, and the IC must hold itself accountable, because 
the threats we are dealing with are far too dangerous to 
tolerate any kind of sloppy work or careless mistakes. As the 
saying goes, the terrorists only have to get it right once to 
be successful; you and we have to get it right all of the time. 
We must use all avenues available for obtaining the crucial 
information we need to protect our people, and that includes a 
full and humane interrogation of captured suspects prior to or 
without Miranda rights. And I emphasize enemy combatants must 
be questioned to the fullest by the intelligence community 
before--if they are Mirandized, before they are Mirandized and 
given an attorney.
    Treating terrorists like common criminals can cost us 
lifesaving intelligence. While I have no doubt that the FBI 
obtained useful information from the Christmas bomber, we just 
don't know how many timely leads have been lost as a result of 
his refusal to cooperate after he was Mirandized. This approach 
gave his terrorist colleagues time to cover their tracks while 
Americans remained at risk. Any FBI interrogator or other 
interrogator will tell you that 50 minutes is not long enough 
to build rapport and get all needed intelligence.
    And any interrogator will tell you that you study up on 
your subject and read everything in the file first before 
you're ready to go in for a full and productive interrogation. 
That takes time and that time must be devoted to the 
preparation prior to effective questioning. We must plan ahead 
for how we can bring intelligence to bear in interrogation, 
whether at home or abroad. Timely action demands timely 
intelligence, and we must ensure that all intelligence tools 
are used when we find ourselves in a similar circumstance 
again.
    I am frankly appalled--I am appalled--that one year after 
the President ended the previous administration's interrogation 
program, that there was nothing in place, nothing in place to 
handle the sort of situation presented by the Christmas Day 
bomber. I submit to our witnesses today that we cannot afford 
to make that same mistake again. I presume that the high-value 
interrogation group that is still coming online will solve a 
number of these problems. And rest assured that this committee 
will be following this closely to ensure that it does.
    Similarly, we cannot let campaign promises blindly guide 
decisions, no matter what the consequences to our society. The 
ideal of closing the Guantanamo Bay detention facility cannot 
become more important than protecting our American citizens 
from the terrorists imprisoned there. And we cannot put 
Americans at risk by letting detainee after detainee rejoin the 
fight. That was a mistake made in a prior administration. That 
mistake must not continue to be repeated today.
    The top two al-Qa'ida operatives in Yemen today, just as 
one example, are both Gitmo graduates that have returned to the 
fight, despite the fact they were supposedly in a rehab 
program. We also must not let our desire to showcase American 
justice outweigh the requirement to protect our citizens. 
Terror show trials in New York or anywhere else are clearly not 
the most expedient way to try the 9/11 suspects. It has taken a 
while for some to wake up to this reality, but I believe Mayor 
Bloomberg's evolution on this topic and his comments from this 
past week are telling.
    Some in the administration have said they want to try them, 
now, in a rural area. Well, I'm from a rural area, and speaking 
from a rural state, I can tell you that we want nothing to do 
with those trials in our state. Aside from the security 
concerns and costs, domestic terror trials have exposed 
sensitive classified information in the past and have given 
intelligence to al-Qa'ida. The examples are well known; I need 
not recount them there.
    Former judge, former Attorney General Mike Mukasey has 
spoken eloquently about that. There are some who've tried to 
contradict him, but they have proven no contradiction. It is an 
unacceptable risk, essentially, since this Congress has passed 
and the court has upheld the military commission process, which 
ensures that even a foreign terrorist/enemy combatant can get a 
fair trial.
    Now, turning to Afghanistan, we must win there; we cannot 
afford to fail. The addition of 30,000 troops to implement 
General McChrystal's counterinsurgency strategy was a positive 
step. Employing smart power as a whole-of-government approach 
is the best way to eliminate al-Qa'ida and the Taliban 
insurgency in Pakistan. But the intelligence community must 
rally around General McChrystal's COIN strategy and continue to 
shift from a CT-only focus to both a CT--or counterterrorist--
and counterinsurgency approach.
    There are other threats that are serious, and terrorism and 
the wars in Afghanistan and Iraq are by no means the only 
threats facing our community. For more than a decade, the 
intelligence community has debated Iran's nuclear intent and 
all the while Iran has progressed closer and closer to a 
nuclear weapons capability. Today, Iran seems to be capable of 
producing highly enriched uranium. And that, gentlemen, is the 
long pole in the tent of a nuclear weapons program.
    And we are left waiting for a nation that provides support, 
training and weapons to our enemies in Iraq and Afghanistan, 
along with their allies like Hezbollah, Hamas and the 
Palestinian Islamic Jihad, to come to the bargaining table. 
While Iran's intent may change over time and I'm hopeful that 
the people of Iran will be successful in pressuring their 
government for change, I, for one, do not believe it is in any 
nation's interest--United States or other nations in the 
world--for Iran to possess a nuclear weapons capability. I 
trust that our witnesses will address the threat from Iran and 
other nation states today.
    Turning now to how we spend the money in the IC to combat 
the threats we face, I believe we must be good stewards of 
taxpayer resources. Unless we start moving in the right 
direction with our big-dollar overhead purchases, we'll 
continue to waste billions of dollars on one-trick ponies, some 
of which never, ever come to fruition. Those of you in the 
community know the examples of large and ultimately 
unsustainable programs that have followed this path.
    Now, the NRO Director told Madam Chair and me last week 
that he agreed with our committee's approach to a cheaper, more 
versatile acquisition that this committee has recommended for 
years, and he was moving forward to execute the program. That 
means we were very surprised, yesterday, in the President's 
budget that this option is not even funded. I believe that's a 
mistake our committee will be closely following and hope we 
will be able to correct that through the legislative process.
    Finally, Director Blair, I was encouraged, as was the 
Chair, to see that in your written opening statement, you spent 
the first two and a half pages discussing cyber threats. Recent 
cyber attacks against Google underscore the importance of sound 
cyber policies and initiatives. And we know that the 
intelligence community recognizes this threat as real and of 
highest importance and goes well beyond what we are discussing 
publicly.
    Yet, to my chagrin, the administration's solution has been 
to create another position, I am afraid, as a figurehead--a 
cyber czar--with less than a half-dozen staff. In a few years, 
I believe we could lament the fact that more was not done now 
to confront this challenge when we had the chance. As Senator 
Feinstein, the Chair said, Senators Whitehouse, Snowe and 
Mikulski comprise a cyber working group on our committee and 
should have much to say on this cyber topic. I believe all on 
the committee agree that it's very real, very serious and the 
administration needs to treat it as such.
    In conclusion, the greatest danger comes from the unknown--
the threat not yet on the radar. Further threats are unlikely 
to be repeat performances, so we must create new methods and 
tradecraft to recognize terror threats we haven't seen before.
    Unfortunately, the process of intelligence community 
reform, legislatively, is not complete. Congress gave the DNI a 
load of responsibility without the requisite authority. The 
squabble between the DNI and the CIA Director, which 
unfortunately surfaced earlier this year, over who will serve 
as the DNI representatives over this past year, is just another 
disappointing example to me that we don't have the right 
balance and clear rules of the road for the IC. We must get the 
balance right if you are expected, Mr. Director, to meet the 
challenges ahead.
    Congress still has work to do in reforming itself in this 
regard. I pushed a proposal for 7 years--one that 14 members of 
this committee signed on to a few years ago--that would provide 
better coordination between the authorization and 
appropriations process for intelligence in the Senate by 
creating an intelligence subcommittee on the Appropriations 
Committee. The 9/11 Commission and others have said we have to 
bring the authorization and appropriations together. 
Unfortunately, there are some who still strongly oppose making 
these necessary changes within the Congress to serve our 
intelligence community better. I would hope to see progress on 
that. I'm not holding my breath, but it still needs to be done.
    Additionally, I would mention that the Project on National 
Security Reform, led by Jim Locher, has made excellent and 
prescient recommendations concerning long-needed national 
security reform within the U.S. government. Leaders in the 
current administration, like National Security Advisor Jim 
Jones, Deputy Secretary of State James Steinberg, Ambassador to 
the United Nations Susan Rice, among others, all sat on the 
guiding coalition of that project before assuming positions in 
this administration. And yet, the administration subsequently 
moved to strip all funding for the project and has not shown 
any interest, yet, in making the necessary changes the project 
rightly recommended. I hope they're listening today, because we 
need some leadership to make sure that we are better equipped 
to face the challenges of tomorrow.
    As we remember the sacrifices made by the men and women 
fighting these threats on the front lines every day, including 
those who so tragically paid the ultimate price recently in 
Khowst, our primary concern must be to prevent attacks on the 
United States and to ensure the safety of the American people, 
as well as our friends and interests abroad. Today's hearing 
will give us a good idea how we can measure up. And I thank 
you, Madam Chair, and look forward to hearing the testimony of 
our witnesses.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Here's how we will proceed, gentlemen: Director Blair, if 
you will begin, representing the entire intelligence community, 
we will then go to Mr. Panetta, Mr. Mueller, General Burgess 
and Mr. Dinger for five minutes or so each. And then each one 
of us will proceed with questions. So Director Blair, we'd be 
delighted to hear from you.

  STATEMENT OF ADMIRAL DENNIS BLAIR, USN (RET.), DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Director Blair. I thank you, Madam Chairman, Vice Chairman 
Bond, members of the committee. In providing you with this 
intelligence community annual threat assessment, I'm proud to 
represent the thousands of patriotic, highly skilled, brave 
professionals of the world's finest intelligence team, and 
we're especially conscious of this as we mourn the recent loss 
of seven of our officers and care for a dozen others who've 
been wounded in recent months.
    All intelligence agencies participated in preparing my 
statement for the record, and I'm pleased to be accompanied by 
my colleagues here this afternoon.
    Every day, as we know, information technology brings 
gadgets and services that make our lives better and more 
efficient. However, malicious cyber activity is growing at an 
unprecedented rate, assuming extraordinary scale and 
sophistication. In the dynamic of cyberspace, the technology 
balance right now favors malicious actors rather than legal 
actors, and it's likely to continue that way for quite some 
time. In addition, the growing role of international companies 
supplying software and hardware for private networks--even for 
sensitive U.S. government networks--increases the potential for 
subversion and mischief.
    The recent intrusions reported by Google are yet another 
wake-up call to those who have not taken this problem 
seriously. Cyber crime is on the rise. Global cyber bank and 
credit card fraud has serious implications for economic and 
financial systems. Attacks against networks controlling 
critical infrastructure, transportation, financial networks, 
and energy could create havoc. Just the facts of the matter are 
that cyber defenders have to spend more, have to work harder 
than cyber attackers, and American efforts are not strong 
enough in this regard right now. The United States government 
and the private sector, who are interlinked inextricably in 
this space, have to ensure that adequate cyber defenses are in 
place.
    Let me turn to the global economy, where the trends are 
more positive. It was a year ago that I sat here and warned of 
the dangers of a global depression. But an unprecedented policy 
response by governments and central banks around the world laid 
a foundation for global recovery that most forecasters expect 
will continue through 2010, although high unemployment and 
pockets of difficulty will still persist. Not all countries 
have emerged from the slump, and several of them are important 
to the United States.
    Pakistan and the Ukraine are still struggling to put their 
economic houses in order. Our allies are trying to insulate 
spending on Afghanistan, where many of them are helping us, 
from budget cuts.
    China is emerging with enhanced clout. Its economy will 
grow from being a third of the size of that of the U.S. to 
roughly half by 2015, an earlier date than we had previously 
projected. This is assuming it maintains the rapid growth, 
which it appears to have the ingredients to do.
    Last year, Beijing contributed to the G-20's pledge to 
increase IMF resources. It deployed naval forces to 
international anti-piracy operations in the Gulf of Aden. It 
supported a new U.N. Security Council sanction resolution 
against North Korea. However, Beijing still believes that the 
United States seeks to contain it, seeks to transform it, and 
it reinforces Chinese concerns about internal stability and 
about perceived challenges to their sovereignty claims.
    China continues to increase its defense spending. 
Preparation for a Taiwan conflict involving a U.S. intervention 
continues to dominate their modernization and contingency 
plans. And China also increasingly worries about how to protect 
its global interests.
    Turning to violent extremism, as you mentioned, Madam 
Chairman, we've been warning in the past several years about 
al-Qa'ida itself, al-Qa'ida-associated groups and al-Qa'ida-
inspired terrorists striking the United States. And we've seen 
the reality of all three of those characteristics of al-Qa'ida 
in the examples that you cited in your opening statement--
Najibullah Zazi, Umar Farouk Abdulmutallab and Major Nidal 
Hasan.
    But the violent extremist threat, al-Qa'ida at center, is 
evolving. We have made the complex, multiple-team attacks very 
difficult for al-Qa'ida to pull off. As we saw with the recent 
successful and attempted terrorist attacks however, identifying 
individual terrorists, small groups with short histories using 
simple attack methods, is a new degree of difficulty. We did 
not identify Mr. Abdulmutallab before he boarded Northwest 
Flight 253 on Christmas Day. We should have and we are working 
to improve so that we can.
    On a positive note, however, only a decreasing minority of 
Muslims support violent extremism, according to numerous polls 
within the Muslim community. But even with a decreasing and 
smaller amount, al-Qa'ida's radical ideology still seems to 
appeal strongly to some disaffected young Muslims, a pool of 
potential suicide bombers and other fighters. And this pool 
unfortunately includes Americans. Although we don't have the 
high-level, home-grown threat that faces European countries 
right now, we have to worry about the appeal that figures like 
Anwar al-Aulaqi exert on young American Muslims.
    However much we improve our intelligence--and we intend to 
improve it even more than it is, however--we cannot count on it 
to catch every threat. So intensified counterterrorism efforts 
in the Afghan- Pakistan theater as well as around the world in 
places like Yemen, Somalia and elsewhere will be critical to 
further diminishing the threat.
    We have to continue to work with allies and partners in 
this campaign, enhance law enforcement, security measures, 
immigration and visa controls, aviation and border security; 
all of these are important for a multi-layered, dynamic defense 
that can disrupt terrorist plans.
    Let me turn to the outlook in Afghanistan and Pakistan. 
Since January of 2007, the Taliban has increased its influence 
and expanded the insurgency while holding onto its Pashtun belt 
thresholds. The challenges that we face are clear.
    Number one: reversing the Taliban's momentum while we 
reinforce security elsewhere. Second: improving Afghan security 
forces, governance and economic capability so that security 
gains will endure and that responsibility can be transferred to 
the Afghanis themselves.
    Early successes in places like Helmand, where Marines have 
been deployed for several months, where aggressive counter-drug 
and economic programs are in place, and where local governance 
is competent, show that we can make solid progress even when 
the threat is high.
    The safe haven that Afghanistan insurgents have in Pakistan 
is the group's most important outside support. Disrupting that 
safe haven won't be sufficient by itself to defeat the 
insurgency but disrupting insurgent presence in Afghanistan is 
a necessary condition for making substantial progress.
    The increase in terrorist attacks in that country has made 
the Pakistani public more concerned about the threat from 
Islamic extremists, including al-Qa'ida. Pakistanis continue to 
support military action against insurgents. Islamabad has 
demonstrated determination and persistence in combating 
militants that it perceives are dangerous to Pakistan's 
interests. But it also has continued to provide some support to 
other Pakistan-based groups that operate in Afghanistan.
    U.S. and coalition success against the insurgency in 
Afghanistan could provide new, long-term incentives for 
Pakistan to take steps against Afghan-focused militants. 
Increased Pakistani cooperation is more likely if Pakistan is 
persuaded that the United States is committed to stabilizing 
Afghanistan and will ultimately have success.
    Finally, turning to Iran, the available intelligence 
continues to indicate that Tehran is keeping open the option to 
develop nuclear weapons. This is being done in part by 
developing various nuclear capabilities that bring it closer to 
the ability to produce weapons.
    One of the key capabilities Iran continues to develop is 
its uranium enrichment program. Published information from the 
International Atomic Energy Agency, the IAEA, indicates that 
Iran has significantly expanded the number of centrifuges 
installed in its facility in Natanz. But it has had problems 
operating its centrifuges, which constrain its production of 
low-enriched uranium.
    The United States and other countries announced last 
September that Iran for years has been building in secret a 
second enrichment facility near Qom. Overall, we continue to 
assess that Iran has the scientific, the technical and the 
industrial capacity to produce enough highly-enriched uranium 
for a weapon in the next few years, if it chooses to do so, and 
ultimately, to produce nuclear weapons. The central issue is a 
political decision to do so. Iran also continues to improve its 
ballistic missile force, which enhances its power projection 
and provides Tehran a means of delivering a possible nuclear 
payload.
    We do not know if Iran will eventually decide to build 
nuclear weapons. And we continue to judge that Iran takes a 
cost-benefit approach in its nuclear decisionmaking. We judge 
that this offers the international community opportunities to 
influence Tehran's decisionmaking.
    The Iranian regime meanwhile has found itself in a weaker 
internal position--internal political situation--following last 
June's disputed Presidential election and the crackdown on 
protestors. Reacting to stronger-than-expected opposition and 
the regime's narrowing base of support, supreme leader 
Khamenei, President Ahmadinejad and their hard-line allies 
appear determined to retain the upper hand by force. They are 
moving Iran in a more authoritarian direction to consolidate 
their power. However, they have not been successful so far in 
suppressing the opposition.
    Madam Chairman, this is the top layer of threats and 
opportunities. Other areas demand our continued attention and 
focus. They include security in Iraq, on the Korean Peninsula, 
weapons of mass destruction-proliferation, and challenges right 
here in the Western hemisphere, especially working with Mexico 
in its efforts against the drug cartels. But I'm also prepared 
with my colleagues to discuss important transnational issues 
like global health.
    Really, it's the very complexity of the issues and 
multiplicity of actors--state, nonstate--that increasingly 
constitute one of our biggest challenges. The intelligence 
community is meeting these challenges every day both to 
policymakers and to units in the field, both civil and 
military.
    In my year on the job, I've been enormously impressed by 
the abilities, dedication and the results of the 100,000 
military and civilian intelligence professionals I have the 
honor to lead.
    Thank you, Madam Chairman. We'll be glad to answer 
questions after my colleagues have a chance to make statements.
    Chairman Feinstein. Thank you very much, Director Blair. 
Mr. Panetta.

  STATEMENT OF THE HONORABLE LEON PANETTA, DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    Director Panetta. Thank you, Madam Chairwoman, Mr. Vice 
Chairman and members of the committee. Thank you for this 
opportunity to be able to share our thoughts with regards to 
the threats, both current and future, that face this country.
    I think the Director has presented a summary of some of the 
key threats that we confront. Of those, I would share with you 
that my greatest concern and what keeps me awake at night is 
that al-Qa'ida and its terrorist allies and affiliates could 
very well attack the United States in our homeland. That's the 
primary reason the President provided the mission that we 
follow, which is the mission to disrupt, dismantle and defeat 
al-Qa'ida and its allies.
    Having said that, the biggest threat I see is not so much 
that we face another attack similar to 9/11. I think the 
greater threat is that al- Qa'ida is adapting their methods in 
ways that oftentimes make it difficult to detect. We have done 
a very effective job at disrupting their operations in the 
FATA. And I think intelligence confirms that they are finding 
it difficult to be able to engage in the planning and the 
command-and-control operations to put together a large attack.
    What's happening instead is that they are moving to other 
safe havens and to other regional nodes in places like Yemen 
and Somalia, the Maghreb and others. And what's happening is 
that they are pursuing an effort to try to strike at the United 
States in three ways.
    One is that they deploy--they have deployed--individuals to 
this country. We've had a series of arrests. I think the Nazi 
arrest, the Headley arrest, are indicative of those that have 
been deployed here and continue to stay in touch with al-
Qa'ida. Secondly, it's the concern about the terrorist who has 
``clean credentials,'' that doesn't have a history of terrorism 
that has come to our attention. Abdulmutallab obviously was 
someone that was out there. He had a visa and, as a result, 
they decided to make use of somebody like that within a very 
short period of time that he arrived. I think they're going to 
be looking for other opportunities like that. And thirdly, 
there is the loner--the individual like Hasan who, out of self-
radicalization, decides that the moment has come to engage in 
an attack by himself.
    So it's the lone-wolf strategy that I think we have to pay 
attention to as a threat to this country. We are being 
aggressive at going after this threat. We've expanded our human 
intelligence. We are engaging with our liaison partners in 
other countries to try to track these kinds of threats. We 
obviously are checking and reviewing watch-lists and other 
lists to determine who among them could be that potential lone 
wolf. And we are taking the fight to the enemy, and we will 
continue to do that.
    But in addition to the fight against al-Qa'ida, we are also 
facing threats from other terrorist groups--terrorists like al-
Shabaab, Hezbollah, Hamas, other jihadist militant groups. And 
a particular concern is LeT--Lashkar-e-Taiba--which, if they 
should conduct an attack against India, could very well 
undermine our efforts in Pakistan.
    In addition, the Director has mentioned the threat from 
North Korea and Iran, and while obviously we're concerned about 
the nuclear side, they also continue to export terrorism--
providing weapons, providing support to a whole series of other 
terrorist groups.
    So the bottom line here is that the war on terrorism is not 
just al-Qa'ida. It is a series of terrorist groups that are 
basically confronting us. And it is the kind of changes that we 
see in their method of approaching the United States that I 
think represents a very important threat that we have to pay 
attention to.
    We are being aggressive, we are taking the fight to the 
enemy, and at the same time, we have to be agile, we have to be 
vigilant and we've got to be creative in the way we approach 
these new threats. The fundamental mission we have is, 
obviously, to protect this country. It's the mission that the 
people at Khowst gave their lives for. And it's the mission 
that the CIA will follow because we believe our greatest 
mission is to keep this country safe.
    Chairman Feinstein. Thank you very much, Mr. Panetta. Mr. 
Mueller.

 STATEMENT OF THE HONORABLE ROBERT S. MUELLER, III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Director Mueller. Thank you and good afternoon, Chairman 
Feinstein, Vice Chairman Bond and members of the committee.
    Director Blair and Director Panetta rightly pointed to the 
global nature of many of the threats we face, from 
international terrorism in Pakistan, Yemen and elsewhere to 
cyber attacks to computer crime committed by international 
criminal enterprises.
    And what is striking is how many of these overseas threats 
reach directly into the United States. Today, events outside 
the United States often have immediate impact on our security 
here at home. And as I discuss our mission and the overall 
threat assessment, I do want to highlight how quickly these 
threats are evolving and how globalization has often led to the 
integration of these foreign and domestic threats.
    Over the past decade, the focus of strategic terrorism 
threats has been South Asia, the heartland of al-Qa'ida. But 
now, as Director Panetta pointed out, al-Qa'ida trainers see 
the tribal areas of Pakistan as less secure and this had led 
al-Qa'ida to franchise into regional components in places such 
as North Africa and the Arabian Peninsula. This evolution has 
been most rapid with al-Qa'ida in the Arabian Peninsula, which 
has changed from a regional group with links to al-Qa'ida to a 
global threat with reach into American cities such as Detroit.
    These changes affect the way we at the FBI think about the 
targets we pursue and what tools we need to pursue them. They 
also require us to keep changing continuously to meet the 
evolving threats of tomorrow. The expansion of violent ideology 
has proven to be persistent and global, as demonstrated by the 
plots we have seen in the past year--those plots listed by the 
Chairman in her opening statement. Those cases demonstrate the 
global diversity of the new terrorism threats.
    Some extremists were radicalized over the Internet or in 
prison. Others received training from known terrorist 
organizations abroad. They were of different ages and 
nationalities. A number were U.S.-born. The targets of these 
attacks range from civilians to government facilities to 
transportation infrastructure to our military, both in the 
United States and overseas.
    The threat from cyber attacks, as has been pointed out by 
Director Blair, reflects the same globalization and pace of 
change. In the past, we focused primarily on state actors 
seeking national security information from our military or 
intelligence services or seeking to acquire technology related 
to defense systems. But as the global economy integrates, many 
cyber threats now focus on economic or nongovernment targets, 
as we have seen with the recent cyber attack on Google. Targets 
in the private sector are at least as vulnerable as traditional 
targets and the damage can be just as great.
    Our focus on the cyber threat does not mean that we have 
seen a decline in classic intelligence and counterintelligence 
activities in the United States. The presence of foreign 
intelligence officers in the United States is not declining and 
they are increasingly using non-traditional collection methods 
to gather information. These services continue to pose a 
significant threat and our counterintelligence mission remains 
a high priority for the FBI.
    Chairman Feinstein and Vice Chairman Bond, let me conclude 
by thanking you and the committee for your support of the 
bureau and on behalf of the men and women of the FBI, we look 
forward to continue to work with you to improve the FBI and to 
keep America safe. And thank you, and I'd be happy to answer 
any questions you might have.
    Chairman Feinstein. Thank you, Mr. Mueller. General 
Burgess.

STATEMENT OF LIEUTENANT GENERAL RONALD BURGESS, USA, DIRECTOR, 
                  DEFENSE INTELLIGENCE AGENCY

    General Burgess. Madam Chairman, Vice Chairman Bond, 
members of the committee, thank you for this opportunity to be 
here today to present the Defense Intelligence Agency 
assessment of current and projected threats to the security of 
the United States.
    The global strategic environment today remains marked by a 
broad array of dissimilar threats and challenges. As the United 
States continues to conduct combat operations in several 
theaters, the nation also faces the threat of terrorist attacks 
at home. Simultaneously, we continue to face risk posed by 
other nations' growing abilities to challenge our qualitative 
military superiority in other regions. It is a time that 
significantly challenges the international system and the 
Department of Defense. Therefore, our armed forces and DIA must 
remain cognizant of dynamic global forces and trends.
    As the 2010 QDR states, the United States faces a complex 
and uncertain security landscape in which the pace of change 
continues to accelerate. Al-Qa'ida remains the most significant 
terrorist threat to the United States. Al-Qa'ida's propaganda, 
attack planning and support of the Taliban and Haqqani networks 
continues. The group still pursues chemical, biological, 
radiological or nuclear materials for attacks. Al-Qa'ida's 
affiliates continue to extend the terrorist group reach and 
brand. Al-Qa'ida in the Arabian Peninsula is growing in size 
and is broadening its repertoire of attacks. Once focused 
mainly inside Algeria, al-Qa'ida in the Lands of the Islamic 
Maghreb is conducting operations in neighboring countries.
    Violence levels in Afghanistan increased last year while 
security declined because of an increasingly capable 
insurgency, the government's inability to extend security 
throughout the country and insurgent access to sanctuaries in 
Pakistan. Originally concentrated in the Pashtun-dominated 
south and east, the insurgency retains momentum and has spread 
west and north. Afghanistan's security forces are growing but 
not keeping pace with the Taliban's ability to exploit the 
security vacuum.
    Pakistan's Federally Administrated Tribal Area continues to 
provide the insurgency, al-Qa'ida and terrorist groups with 
valuable sanctuary for training, recruitment, planning and 
logistics. Successful strikes against al-Qa'ida and other 
militant leaders in the FATA have disrupted terrorist 
activities but the groups are resilient. Pakistan's military 
has demonstrated increased counterinsurgency training and 
doctrinal adjustments but its priority remains India. We have 
confidence in Pakistan's ability to safeguard its nuclear 
weapons, though vulnerabilities exist.
    Notwithstanding recent high profile bombings claimed by al- 
Qa'ida in Iraq, the country is still on a generally secure 
path. The group remains the most capable Sunni terrorist group, 
though constrained by a lack of safe havens. It has regained 
some freedom of movement following U.S. forces' withdrawal from 
Iraqi cities. Iraq's security forces conduct the majority of 
security operations independently but still require 
improvements in logistics, tactical communications and 
intelligence, surveillance and reconnaissance.
    In Iraq, Iran continues to rely heavily upon the Islamic 
Revolutionary Guards Corps Quds Force, its special operations 
command, to undermine U.S. efforts by providing weapons, money 
and training to Iraqi Shia militants for attacks against U.S. 
personnel.
    Turning briefly to nations, region and trends of interest, 
Iran supports terrorist groups and insurgents in Iraq, 
Afghanistan, Lebanon, Gaza and elsewhere as a means to expand 
its own influence, frustrate regional rivals and impede U.S. 
strategy across the region. It invests heavily in developing 
ballistic missiles with greater accuracy and new payloads. With 
more than 8000 installed centrifuges at Natanz, Iran now has 
enough low-enriched uranium for a nuclear weapon if it further 
enriched and processed.
    China's military modernization continues with the 
acquisition of growing numbers of very sophisticated aircraft, 
warships, missiles and personnel required to employ these 
capabilities. China seeks military superiority along its 
periphery, with a focus against traditional U.S. military 
advantages in air and naval power projection and in space.
    North Korea remains unlikely to eliminate its nuclear 
weapon capability for the foreseeable future, believing the 
weapons serve as a strategic deterrent and leverage while also 
counterbalancing the logistic shortages, aging equipment and 
insufficient training that plague its conventional forces.
    Russia is proceeding with ambitious military reform. The 
effects of the global recession, an aging industrial base, 
corruption, mismanagement and demographic trends will limit 
Moscow's ability to realize the full benefits of the reform 
plan, but the sweeping reorganization likely will increase the 
military advantages over adjacent nations.
    In Latin America, Mexico remains locked in a violent 
struggle against drug trafficking organizations which pose a 
grave threat to the state.
    Venezuelan arms purchases, primarily from Russia, continue. 
Colombian operations have reduced the Marxist-oriented 
Revolutionary Armed Forces of Colombia guerillas' end strength 
by nearly 50 percent to approximately 8500 personnel. Sustained 
pressure could splinter the FARC until it poses less of a 
threat to democratic institutions, though it would remain 
involved in criminal activities.
    The threat posed by ballistic missiles is likely to 
increase and grow more complex over the coming decade as they 
become more mobile, survivable, reliable and accurate at 
greater ranges. Pre-launch survivability also grows as 
potential adversaries strengthen their denial and deception 
methods.
    Let me conclude by saying that while DIA's top war time 
priority is to provide the intelligence required by our 
military commanders and policymakers in support of our ongoing 
combat operations, this agency concurrently retains a core 
responsibility to prevent strategic surprise and be positioned 
to respond to a wide range of contingencies.
    That requires the most prudent and judicious use of our 
resources, especially our most important resource, our people--
both civilians and those in uniform. In visits with DIA's 
forward-deployed military and civilian personnel, including in 
Iraq and Afghanistan, I remain impressed by and thankful for 
their willingness to serve the nation in wartime. Many are on 
their second or third deployment alongside our troops in harm's 
way. Some have been wounded by roadside bombs and mortar 
attacks.
    Notwithstanding their sacrifices, they continue to serve 
knowing that the intelligence they provide saves lives and 
speeds operations. On their behalf, I want to thank this 
committee for your strong support and continuing confidence in 
the Defense Intelligence Agency and our mission.
    Chairman Feinstein. Thank you very much, General Burgess.
    Ambassador Dinger, if you'd be the wrap-up speaker, please.

STATEMENT OF AMBASSADOR JOHN DINGER, ACTING ASSISTANT SECRETARY 
             OF STATE FOR INTELLIGENCE AND RESEARCH

    Ambassador Dinger. Thank you. Thank you, Madam Chairman, 
members of the committee. It's my pleasure to be here today to 
represent the Bureau of Intelligence and Research at the State 
Department.
    Although one of the smallest intelligence community 
elements, we consider ourselves to be mighty contributors to 
the Secretary of State as she fulfills her responsibility as 
the President's chief foreign policy advisor and we're proud of 
our contribution to the intelligence community as it ensures 
the security of the United States.
    One of INR's principal missions is to provide timely and 
accurate intelligence analysis that enables U.S. diplomacy to 
anticipate and address threats and opportunities and to do so 
early enough so that policymakers can take action. The average 
analyst in INR has 11 years of experience on his account, 
allowing him to offer what we believe is an uncommon depth of 
understanding of the characters and issues at play in the 
world.
    INR is proud to put its analytical depth at the service of 
the Secretary and the intelligence community. Through our 
intelligence policy and coordination staff, INR also ensures 
that intelligence activities are consistent with and advance 
U.S. foreign policy interests and that other components of the 
intelligence community understand the information and 
analytical needs of the foreign policy decisionmakers.
    INR has other important missions. One is to act as the IC's 
executive agent for analytical outreach, bringing outside 
expertise to bear on the most challenging intelligence and 
foreign policy issues of the day. INR's Office of Opinion 
Research aims to be the U.S. government's foremost authority on 
worldwide public opinion.
    DNI Blair's written statement comprehensively addresses the 
global challenges before us. I will take just a few moments to 
highlight two areas that DNI and others have already spoken to 
in which INR is supporting the priorities of Secretary Clinton 
and the intelligence community and the United States 
government.
    First, countering terrorism. Terrorism remains a key focus 
for INR's analysts. We have a small but dedicated team of 
analysts in our Office of Terrorism, Narcotics and Crime. They 
work closely with our regional analysts and with those 
throughout the IC to produce all-source strategic 
counterterrorism analysis with nuanced context and perspective.
    The second area I also want to highlight is cyber. In 2008, 
the State Department established a new office, INR's Office of 
Cyber Affairs, INR Cyber, to analyze cyber issues and help 
coordinate the department's cyber activities. Currently housed 
in INR, INR Cyber collaborates across corridors in the State 
Department and throughout the IC to strengthen cyber security. 
It is also engaging with other nations to help establish norms 
that will help maintain the stability of and confidence in the 
Internet.
    INR believes the intelligence community has an obligation 
to provide global intelligence coverage. I want to very briefly 
mention two regions, only one of which has been covered today 
in today's oral statements.
    First, economic and political progress in Africa remains 
uneven, varies greatly from nation to nation and is still 
subject to sudden reversal or gradual erosion. The daunting 
array of challenges facing African nations makes it highly 
likely in the coming year that a number of African countries 
will face new outbreaks of political instability and economic 
distress that will join ongoing and seemingly intractable 
conflicts in places such as Sudan and Somalia.
    Nigeria, for example, faces serious social, economic and 
security challenges over the next year. Guinea provides an 
example of how quickly African crises can emerge. Many African 
nations also risk humanitarian crises.
    In some Latin American countries, democracy and market 
policies remain at risk because of crime, corruption and poor 
governance. Powerful drug cartels and violent crime undermine 
basic security elsewhere. Elected populist leaders in some 
countries are moving toward a more authoritarian and statist 
political and economic model and oppose U.S. influence and 
policies in the region.
    Madam Chairman, members of the committee, INR will continue 
to think, analyze and write strategically to identify for 
Secretary Clinton the threats, challenges and opportunities 
arising from a complex and dynamic global environment. We will 
work hand-in-glove with the rest of the intelligence community 
to ensure the security of the United States. INR will strive to 
put intelligence at the service of foreign policy and make 
certain that intelligence activities advance America toward our 
foreign policy goals and protect us from threats.
    Thank you, once again, for the opportunity to appear before 
you and I am happy to answer any questions you may have.
    Chairman Feinstein. Thank you very much, Mr. Ambassador.
    To begin the questions, I'd like to ask a very specific 
question of each one of you if you would answer it. The 
question is, what is the likelihood of another terrorist 
attempted attack on the U.S. homeland in the next three to six 
months--high or low? Director Blair?
    Director Blair. An attempted attack, the priority is 
certain, I would say.
    Chairman Feinstein. Mr. Panetta.
    Director Panetta. I would agree with that.
    Chairman Feinstein. Mr. Mueller.
    Director Mueller. Agree.
    Chairman Feinstein. General Burgess.
    General Burgess. Yes, ma'am. Agree.
    Chairman Feinstein. Mr. Dinger.
    Ambassador Dinger. Yes.
    Chairman Feinstein. All right. I think that tells us 
something very clearly. There has been a response to the 
Abdulmutallab case that all suspected terrorists should be 
labeled enemy combatants and prosecuted through the military 
commissions system, if at all.
    Candidly, my view is that the President should have the 
flexibility to make a determination based on the individual 
circumstances of the case--the location of the terrorist 
activity, the location of the arrest, the nationality of the 
suspect, whether federal crimes or law of armed conflict have 
been violated, et cetera.
    I'd like to ask this question, Mr. Mueller. What is the 
FBI's track record in gaining intelligence and collecting 
evidence to convict terrorists since 9/11?
    Director Mueller. Well, Madam Chairman, in your opening 
statement, you mentioned many of the cases that we addressed 
last year: a number of disruptions from Dallas to Springfield, 
Illinois; Charlotte, North Carolina; the Zazi case in Denver 
and New York. In almost all of the cases, we have gathered 
intelligence. Some of that intelligence has become evidence so 
that we could arrest, indict and continue to prosecute those 
individuals.
    Since September 11th we've had numerous disruptions. In 
just about every one of these cases where there are two or more 
involved, one or more of the individuals have ultimately 
cooperated, given the leverage of the criminal justice system 
to cooperate not just against the conspirators but also to 
provide intelligence as to other potential threats.
    And to the extent that we have had success since September 
11th, it has been because we have been able to convince persons 
to provide intelligence, to provide evidence on others who may 
be involved in the plot and persuade individuals both here in 
the United States as well as elsewhere in the world to 
contribute intelligence as well as evidence to disrupt plots 
and to assure that those who were engaged in the plots are 
successfully prosecuted and incarcerated.
    Chairman Feinstein. Thank you very much.
    I'd like to just quickly ask one question on the status of 
Hezbollah which has not been mentioned. Director, you assess 
that Hezbollah is the largest recipient of Iranian financial 
aid, training and weaponry. And Iran's senior leadership has 
cited Hezbollah as a model for other militant groups. How has 
Hezbollah rebuilt its military arsenal since its 2006 war with 
Israel?
    Director Blair. Let me get some help from General Burgess 
here too, but overall, Hezbollah is stronger now than in 2006, 
when the last war took place. And it's also developed 
politically.
    General Burgess. Madam Chairman, I would agree with his 
assessment. They in fact reinforced and replaced very quickly 
what they had lost in the 2006 war with Israel. And today I 
think they are actually stronger and have improved themselves.
    Chairman Feinstein. Can you comment on the sophistication 
of these replacements?
    General Burgess. In some cases, from a missile standpoint, 
I think there are indications that they have improved. 
Hezbollah has increased the quantity of their missiles and may 
have acquired additional systems with improved accuracy. But at 
a minimum, their overall missile effectiveness remains the 
same.
    Chairman Feinstein. Thank you very much. I think that's 
going to be it for me, for now.
    Mr. Vice Chairman, why don't you go ahead?
    Vice Chairman Bond. Thank you, Madam Chair. Director 
Mueller, we appreciate and congratulate you on the excellent 
work that the FBI has done in capturing and bringing to justice 
Zazi and other people whose capture was announced last fall.
    Do you believe that questioning of an enemy combatant, 
someone with potential knowledge of battlefield intelligence 
for the future, can be done briefly or within a short timeframe 
needed to give the customary Miranda rights of a normal 
criminal suspect, a bank robber, in the United States?
    Do you agree with those in the intelligence community who 
say that the only effective way of interrogating somebody like 
Abdulmutallab would be to spend the time to collect the 
information otherwise available in the intelligence community, 
background and what other intelligence may be available, in 
order to question him effectively, to be able to ask him 
questions about issues where we know the answers to see if he's 
telling the truth and to confront him with other intelligence? 
Do you believe that that is necessary in some cases to get 
information on an enemy combatant?
    Director Mueller. Well, Senator, let me talk generally but 
then also somewhat specifically about the events of Christmas 
Day. Let me start off with a belief that we in the FBI--as 
everybody in this room understands--know the importance of 
intelligence. Since September 11th, it has been the mission of 
the FBI to prevent terrorist attacks--not just indict and 
arrest and convict persons for those terrorist attacks but to 
prevent the terrorist attack and intelligence is key.
    If you look at the circumstances of Christmas Day, the 
plane came in at approximately 12:00. Shortly there afterwards, 
we started pushing out information relating to the events that 
had occurred on the plane as it went into Detroit. We then, as 
I think everybody in this room knows and understands, Mutallab 
was arrested on the plane and taken to a hospital.
    We had agents from the Joint Terrorism Task Force go to the 
hospital. They were given an opportunity to talk to 
Abdulmutallab before he went through surgical procedures. He 
had burned himself in trying to light the explosives. They had 
a window of opportunity; they exploited that window of 
opportunity to try to find out information as to whether there 
were other bombs on the plane, were there other bombs in other 
planes, who was responsible--and took that opportunity because 
it was given and there was an immediate need to have that 
information, that intelligence, to determine what the threat 
was at that time.
    The doctors then took him in for surgical procedures. Going 
into that afternoon, there were discussions here amongst most 
of the agencies here as to what should occur down the road, 
although no specific instructions or consultations with persons 
at this table as to whether the individual should be 
Mirandized.
    We were then given an opportunity later that night to again 
interview him. And after consultation, or in consultation with 
Justice Department attorneys, we determined to follow our 
protocols--protocols established by the Supreme Court--in terms 
of how you interrogate and question individuals in custody in 
the United States. A team went in to talk with him. He talked 
for a few moments and then afterwards, after he was given his 
Miranda warnings, asked for an attorney and we discontinued the 
questioning.
    We felt we had to take that opportunity at the outset to 
gather the intelligence. It was not ideal; we did not have much 
information at 3:30 in the afternoon when the plane came in at 
1:00. We gathered information throughout the afternoon to do a 
better interrogation that evening. We have found over a period 
of time that the Miranda warnings can, but often are not, an 
impediment to obtaining additional intelligence.
    And the story continues. We have been successful, very 
successful in gathering intelligence over a period of time with 
teams, persons from various agencies, the most recent example 
being the intelligence we've gotten from David Headley, who was 
arrested in Chicago for his participation in the Copenhagen 
plot but also subsequently indicated his involvement in the 
Mumbai shootings.
    As I say, this case as in all cases, we will continue to 
try to provide or obtain, I should say, information and 
intelligence from Abdulmutallab and to the extent that you wish 
further information on that----
    Vice Chairman Bond. We will ask that. I'm asking a general 
procedural question. You're not saying that an enemy combatant 
that comes into the United States has been ruled by the Supreme 
Court to be entitled to Miranda rights before questioning 
proceeds, are you?
    Director Mueller [continuing]. No, what I'm saying is that 
if a person is accepted by DOD for prosecution before a 
military commission, he is not entitled under the procedures 
that are extant to Miranda warnings. However, that has not yet 
gone up to the Supreme Court. And so there is a difference 
between having a person in the federal district court and the 
civilian courts and under military commissions.
    Vice Chairman Bond. And that's the point. That's the point. 
Many commentators and I have agreed that treating this person 
as a common United States criminal when he was clearly an enemy 
combatant--I don't know how much more clearly you can be an 
enemy combatant, like the German saboteurs who arrived in the 
United States in the early 1940s. Nobody thought that they were 
bank robbers coming from Germany to rob some banks. They didn't 
treat them as such.
    And from the press reports of what we've seen, this was not 
your average bank robber. He was not a car hijacker. This 
person was an enemy combatant. Who ultimately made the decision 
to Mirandize him? Who was the individual--where did that 
decision rest in the chain?
    Director Mueller. It rested with the head of our 
Counterterrorism Division along with attorneys from the 
Department of Justice.
    Vice Chairman Bond. So it was a Department of Justice 
decision to Mirandize.
    Director Mueller. No, it was a combination of our providing 
the facts to the Department of Justice and in consultation with 
the Department of Justice making a decision that he should be 
Mirandized.
    Vice Chairman Bond. While other agencies took part in it, 
we have heard that they felt that they needed to have more 
opportunity to question him.
    Director Blair. Mr. Vice Chairman, on that score, I'm as 
strong for getting as much intelligence as we can from anybody 
remotely connected with terrorism, much less somebody who's 
carried a bomb into the country. But I think that we need to 
have a flexibility in the tools that we have available to use. 
And I'm not convinced that you can make a--in fact, I'm 
convinced that you cannot make a hard decision that everything 
should be taken through a military tribunal or everything 
should be taken through a federal court.
    There are decisions that have to be made in which you 
balance the requirement for intelligence with the requirement 
for a prosecution and the sorts of pressure that you bring onto 
the people that you arrest in either form. It's got to be a 
decision made at the time. And I think the balance struck in 
the Abdulmutallab case was an understandable balance. We got 
good intelligence, we're getting more.
    Vice Chairman Bond. I disagree very strongly with that 
conclusion, but I agree with you that there should be a 
decision made after consultation with the relevant agencies and 
the intelligence community when an enemy combatant comes in 
before the Department of Justice gives the order to Mirandize 
him.
    He's an enemy combatant and the decision ought to be made 
with the participation of the intelligence community, whether 
he thinks the future safety of the United States would make it 
imperative to question that enemy combatant before giving him a 
lawyer and Mirandizing him.
    I see my time is up, Madam Chair.
    Director Blair. Let me just say that we consider Director 
Mueller a full member of the intelligence community. He's one 
of the brothers.
    Vice Chairman Bond. But he reports to the Attorney General 
and you, Mr. Director, in my view, should be the head of the 
intelligence community. If we haven't made it clear in IRTPA, 
we need to make that clear.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator Rockefeller.
    Senator Rockefeller. I don't relish pursuing this, but in 
that it's become kind of a cause du jour, I think it's 
important to. I agree totally, Director Blair, with what you 
said, that it should be done on a case-by-case basis. Nothing 
should be ruled in; nothing should be ruled out. There's an 
instinct on the part of some that the only way that you can 
correctly get intelligence and then prosecute the enemy 
combatant or whatever you want to call him is through the 
military commissions.
    And I think their record is they've condemned three and two 
of them are gone, on the streets. You, through the criminal 
justice system, Director Mueller, have prosecuted hundreds and 
they're around or in jail. Let me just ask, Director Mueller, 
in your experience as FBI Director in the 8 years since 9/11--
and you've been there every single one of those days--have 
terrorist suspects provided valuable intelligence after they 
have been Mirandized?
    Director Mueller. On a number of occasions, yes, sir.
    Senator Rockefeller. Case by case?
    Director Mueller. Case by case. There are two cases--one 
that was already mentioned, David Headley out of Chicago, which 
is one of the more recent ones. Back in 2004, there was an 
individual by the name of Mohammed Junaid Zabar.
    Senator Rockefeller. Thank you.
    Director Mueller. Another individual who provided 
substantial intelligence.
    Senator Rockefeller. On the flipside, do terrorist suspects 
always automatically come forth with intelligence unless and 
until they are Mirandized?
    Director Mueller. No, it differs from case to case.
    Senator Rockefeller. Case by case.
    Director Mueller. Circumstance to circumstance.
    Senator Rockefeller. Thank you. Is it true that, depending 
on the circumstances, in some cases the best method for gaining 
intelligence is by charging the terrorist with a crime, 
Mirandizing him and conducting a thorough criminal 
investigation?
    Director Mueller. We have found that the system of justice 
in the United States, which allows for consideration for a 
contributing intelligence and information and credit for that 
is a powerful incentive to persons to provide truthful, 
actionable information, evidence and intelligence.
    You have other countries that don't have the same system of 
justice, where there is no incentive to cooperate or provide 
intelligence and the person stays in jail without any incentive 
to provide intelligence and without providing, ultimately, any 
intelligence. So in case after case here, we have been 
successful in entering into some sort of agreement with the 
defendant and having that defendant provide actionable 
intelligence.
    Senator Rockefeller. I don't want, particularly, an answer 
from any of you on this, but it is my impression, having 
studied this some, that the military commissions process for 
prosecuting is relatively unformed and in a state of play. It 
is not an experienced, professional process such as you have at 
your disposal. It may work very well. It may not work very 
well.
    I'm not talking about the getting of intelligence, but I'm 
talking about the prosecuting. I don't expect you to answer on 
that, I'm simply giving you my opinion. Recognizing the 
classification issues at stake here, can you tell me if--and 
you've answered this already, but I want it on record--if 
Abdulmutallab had provided the valuable intelligence in his FBI 
interrogations?
    Director Mueller. On Christmas Day itself, he provided 
responses to questions, information and to the extent that we 
go into more detail, I'd ask that we do it in closed session.
    Senator Rockefeller. I understand that. I understand that. 
In your professional judgment, I would say to Director Blair--
and you sort of answered this, but I'd like it again on the 
record because I think this is a debate which is spilling most 
unhelpfully across the talk shows and beyond--in your 
professional judgment, are there compelling national security 
reasons to prosecute some terrorism cases in a federal criminal 
court rather than in a military commission? And on the other 
side, would there be some cases where you might prefer to do it 
in a military commission, or are you familiar enough with their 
processes to make such a recommendation?
    Director Blair. Senator, it's not my responsibility nor do 
I have a great deal of expertise in the venue that's chosen for 
prosecution. What I'm interested in is getting the intelligence 
out so that we can do a better job against the groups that send 
these people. And I've seen intelligence come from a variety of 
interrogations, primarily based on the skill of the 
interrogators--and there are good ones in many different 
places--and by the degree to which we back them up and back 
them up quickly with an intelligence team which can help them 
with their requirements. I think that's the key thing from my 
point of view.
    Senator Rockefeller. Then I would ask both of you, and 
actually of all five, it seems to me that what we've come down 
to in this brief interchange is that this should be done on a 
case-by-case basis based upon what seems to be best according 
to professionals who carry the responsibility and the judgment 
for making those decisions, should it be criminal justice, 
should it be military commission. Would you agree with that?
    Director Blair. I think that decision is bound up in the 
interrogation, which is what I care about. So I think yes, it 
should be a rapid, flexible, case-by-case, balancing the 
requirement for intelligence with the requirement to put these 
people behind bars and not let them go free that is what we 
need.
    Senator Rockefeller. Director Mueller.
    Director Mueller. I think our history has been that the 
decision whether or not to proceed in a federal district court 
or in a civilian court versus a military commission is a 
weighty decision. We've had two occasions where it's happened 
in the past where somebody's been taken out of civilian courts 
and put into the military courts and then ended up back in 
civilian courts--al-Mari and an individual by the name of 
Padilla.
    And so yes, the differences in procedures for interrogation 
is one factor, but there probably are a number of other factors 
that need to be weighed by the Justice Department and the 
executive before that decision is made. And I'm not certain 
that it is a decision that can be made very quickly because 
there are a number of competing factors and one would want to 
take some time, I would think, in order to sort those factors 
out.
    Senator Rockefeller. But in the end, this is a decision 
that should be made by professionals according to their 
responsibilities and according to the facts of the case?
    Director Mueller. Yes, but ultimately, it is the Attorney 
General and the President that make the decision.
    Senator Rockefeller. But what I'm saying is that we should 
not limit the President by saying it has to go here or it has 
to go there.
    Director Mueller. Absolutely.
    Senator Rockefeller. He should not be limited.
    Director Mueller. Absolutely.
    Senator Rockefeller. I thank you both. Thank you Madam 
Chairman.
    Chairman Feinstein. Thank you very much, Senator 
Rockefeller.
    Senator Hatch.
    Senator Hatch. Thank you, Madam Chairman, and, first of 
all, I'd like to thank all of you for the hard work that you do 
for our country and for our people. You're all great people in 
my eyes.
    Director Blair, let me just start with you. A few minutes 
ago, we received from your office a copy of a letter signed by 
John Brennan, who's Assistant to the President for Homeland 
Security and Counterterrorism to Speaker Pelosi on the subject 
of the closure of Guantanamo and the transfer of detainees 
abroad.
    Now, the second paragraph of the letter states the 
following, ``The professional assessment of our military 
commanders and civilian leaders of the Department of Defense is 
that closing the detention facilities at Guantanamo is a 
national security imperative in the war against al-Qa'ida. 
Secretary Gates, Admiral Mullen and General Petraeus have all 
stated that closing Guantanamo will help our troops by 
eliminating a potent recruiting tool.''
    Now, in my mind, the word ``imperative'' implies something 
that has to be addressed for an immediate reaction. Now, 
Director Blair, I concur that terrorist propaganda does use 
Guantanamo as a theme. It also uses our close relationship with 
Israel, but I don't think we're going to change our policies 
toward Israel as a result. And by his assertion--or this 
assertion by Mr. Brennan, let me just ask you these specific 
questions.
    Is there any intelligence or analysis that you can share 
here or provide in closed hearing that proves, indicates or 
even suggests that al-Qa'ida would change its plans and intents 
towards us if we closed Guantanamo?
    Director Blair. I don't think it would change its plans or 
intent, but it would deprive al-Qa'ida of a powerful symbol and 
recruiting tool, which it has actively exploited over the 
years.
    Senator Hatch. Well, just because they would have one less 
recruiting theme, is there an intelligence or analysis that the 
threat from al-Qa'ida would be diminished?
    Director Blair. Well, the extent to which they weren't able 
to recruit people who the Guantanamo symbol helped to recruit, 
they would be weaker without it.
    Senator Hatch. Well, is there any intelligence or analysis 
that you're aware of that specifically indicates that U.S. 
forces abroad would be under any less threat from al-Qa'ida 
were Guantanamo to be closed?
    Director Blair. You're a much better lawyer than I am, 
Senator Hatch. I've learned that in these exchanges, but what 
I'm trying to say is that it's a factor that helps the enemy, 
that if we can deprive them of that factor, it's good.
    Senator Hatch. Yeah, I'm not trying to give you a rough 
time, nor am I trying to cross examine you. But I am trying to 
establish that, my gosh, nothing's going to change their 
attitude towards us. There are a lot of things that we do that 
they don't like, including our friendship with Israel and some 
other countries in the Middle East, the Arab countries. Let me 
ask you this, have you ever provided intelligence to our 
policymakers that supports the notion that the homeland or our 
troops would be safer after Guantanamo's closed?
    Director Blair. We provided intelligence and I assess, 
Senator Hatch, that among the things that we can do that would 
weaken al-Qa'ida would be to close Guantanamo and diminish the 
emotional and symbolic support that that gives them in the pool 
of people they try to recruit in order to come against us.
    Senator Hatch. Well, isn't it true that al-Qa'ida used the 
prosecution and imprisonment of the blind sheikh as a 
recruiting tool and that al-Qa'ida members have said they were 
inspired to attack us because of that incarceration? You know 
that's true. Is there any intelligence that suggests al-Qa'ida 
would not use a prison located in the United States as a 
recruiting tool?
    I've been to Guantanamo. It's pretty nice compared to the 
place in Illinois where they want to put them. It'd be nice and 
cold in the winter time and all I can say is that I imagine 
there'll be a hue and a cry that we're not fair by bringing 
them here.
    Director Blair. Yes, I'm sure there will be stories about 
wherever they're incarcerated, but I'm thinking of books that 
have been written by former detainees that are passed out, 
testimonies on the Internet that Guantanamo has achieved a sort 
of mythic quality which helps al-Qa'ida.
    Senator Hatch. Well, I think the point I'm trying to make--
and, of course, I think it's easy to see--is that no matter 
what we do, they're going to criticize us. We've got a very 
significant courthouse down there at Guantanamo that could try 
these in a military commission. We treat them very, very well 
down there. Some of them probably are treated better than 
they've ever been treated in their lifetimes.
    But no matter what you do, the terrorists and al-Qa'ida and 
Taliban and others are going to complain and say that we're not 
doing it right. Seems to me crazy to, you know, to take the 
position that because Guantanamo has been a recruiting tool, 
then we ought to close it, when in fact it meets basically 
every need I think that we need in handling these matters. I 
have a lot of other questions, but I think I'll submit them in 
writing, but I'm really concerned.
    We've seen what's happened just this past week with regard 
to the desire to hold the trial in midtown Manhattan. And now 
there's a great desire not to. As a trial lawyer, I can tell 
you right now that there are all kinds of approaches that could 
be taken that would be better than trying Khalid Shaykh 
Mohammed in this country.
    And I think that the Zacarias Moussaoui case--4 years to 
try it or to go through the whole process--he ultimately gets 
off because one juror didn't believe in the death penalty. And 
during that trial, he was taunting families of those who had 
been killed and using it as a propaganda device to act like he 
was a hero when in fact he was nothing but a murderer as the 
twentieth hijacker. And I can't even begin to imagine what 
Khalid Shaykh Mohammed would do if that trial was within the 
confines of the United States and it's not a military tribunal.
    Well, I know that you have to be a loyal member of the 
administration--all of you. And I accept that. But I think it's 
a dumb, dumb, stupid approach to take when we have the 
facilities that are perfectly capable of taking care of these 
people and doing it an a way with a military commission that 
makes sense, is legal, after we corrected the military 
commission statute and totally acceptable, it seems to me.
    Senator Rockefeller. Would the Senator yield?
    Senator Hatch. Sure.
    Senator Rockefeller. That was quite a potent statement you 
made there.
    Senator Hatch. Yeah, it was.
    Senator Rockefeller. To recognize that these five men 
before us are members of an administration and therefore the 
implication that they can only talk based upon what they have 
been instructed to say as opposed to being profound 
professionals in their field, as opposed to what they might 
actually feel. So are you saying that they're just saying what 
they've been told to say?
    Senator Hatch. Well, I've only been here 34 years, but I 
can say that I've seen administration after administration 
executives that support their administration. I don't blame 
them for that. Their budgets depend on it. There are lot of 
other things--their jobs depend on it half the time.
    Senator Rockefeller. Thank you.
    Senator Hatch. I don't have any problem with that. All I do 
have a problem with is I think it's stupid to put the whole 
country through this mess because the Attorney General feels 
that might be a better way of doing things, when in fact it's 
the worst way of doing things.
    Chairman Feinstein. If I may----
    Senator Hatch. Sure.
    Chairman Feinstein [continuing]. Now, you know, you're a 
good friend of mine, Senator Hatch.
    Senator Hatch. I am.
    Chairman Feinstein. And I love and respect that friendship. 
But I've really got to correct the message.
    Senator Hatch. Okay.
    Chairman Feinstein. First of all, the policy was really 
established during the regime of Ronald Reagan. And let me 
quote Jerry Bremer, who was this President's--Ronald Reagan's--
first coordinator for counterterrorism in 1986. This is what he 
said in a speech in November of 1987 to the Council of Foreign 
Relations in Tampa.
    He said, ``Terrorists are criminals. They commit criminal 
actions like murder, kidnapping and arson. And countries have 
laws to punish criminals. So a major element of our 
strategy''--and remember, he's saying that on behalf of 
President Reagan--``has been to delegitimatize terrorists and 
get society to see them for what they are.''
    That was the policy then; it was the policy of every 
President since that time. George Bush--and I can go chapter 
and verse on each individual when they were transferred from 
one custody to another--he had flexibility, he made changes, 
and now all of a sudden, it's a huge political issue. And I 
think it's absolutely wrong to do that. So now I've had my say.
    Senator Hatch. Now, let me just take a point of personal 
privilege.
    Chairman Feinstein. You may respond, Senator Hatch.
    Senator Hatch. Yeah, I think that it's a question of law. 
It's a question of how you approach the law. And whether Reagan 
did that or not, I don't know. All I know is that we didn't 
have 3,000 people killed in one day in New York City, in the 
three various incidents that occurred. These are vicious 
people. As I understand it, Khalid Shaykh Mohammed said he 
would plead guilty and that he wanted to be executed so he 
could be a martyr for his people. And I think even having said 
that he deserves at least an opportunity for a trial.
    But I think when you have the capacity of doing it in a 
place as good as Guantanamo, it ought to be done there. And it 
shouldn't be brought to this country on our shores. And I think 
you're seeing more and more people getting upset about this. 
And it's not so much a political thing as it is just a domestic 
security thing that people are concerned about.
    Chairman Feinstein. Thank you very much, Senator Hatch.
    Senator Whitehouse.
    Vice Chairman Bond. Madam Chair, I just have to add. I 
don't think Ronald Reagan deserves to be in this discussion. 
You talk about 1986. That was before the activities of the 
1990s and when 9/11 brought a whole new threat to our views. 
Now, when 9/11 happened, President Bush took a number of 
actions. There's some that I think--where he's been proven 
wrong and I would hope we would learn from releasing detainees. 
That was wrong. He made the right decision when he did treat 
Jose Padilla as an enemy combatant in questioning.
    But if we can't learn from our mistakes, no matter whether 
it's Republican or Democrat, then we're doomed to commit them 
again. And I just suggest that we are learning a lot. And I 
would hope that we would have a different approach next time an 
enemy combatant lands on this soil. Thank you, Madam Chairman.
    Chairman Feinstein. Well, thank you. Just for the record, 
I'm going to submit to the record a list of individuals 
convicted under the Bush administration in criminal court, in 
Article III court--beginning with Richard Reid, going to Omar 
Abu Ali, Zacarias Moussaoui, as well as Padilla, Lindh, the 
Lackawanna Six and so on and so forth--and put these in the 
record.
    The point is that a President should have flexibility to 
cite the venue for trial. And it may be different for different 
cases. And all I can say is those of us on this side of the 
aisle did not criticize President Bush for doing this at this 
time. And we view with some suspicion the fact that President 
Obama is being criticized for following policy that had been 
established since 9/11. I'll now recognize----
    Vice Chairman Bond. Madam Chair--I will add ----
    Chairman Feinstein [continuing]. I'll now recognize Senator 
Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    Vice Chairman Bond [continuing]. I will add the names of 
the people who--the information released as a result of these 
trials, where we held the trials and I will discuss further--I 
disagree with your characterization. Thank you.
    Chairman Feinstein. Senator Whitehouse.
    Senator Whitehouse. Madam Chair, I have not been here 34 
years. I have been here only three years, but I find it 
extremely discouraging that with these gentlemen before us--the 
head of the Defense Intelligence Agency, the head of the FBI, 
the Director of National Intelligence, the head of the Central 
Intelligence Agency and the acting head of the State 
Department's intelligence service--who I would add is the 
acting head because there is a Republican blockade of the 
person who is slated for that position here more than a year 
into the Obama administration--that all this committee can talk 
about is where Mr. Abdulmutallab was Mirandized and where 
trials should be.
    There are so many issues that are so important to our 
national security that these gentlemen have real expertise in. 
I think it's clear that the tradition has been strongly towards 
civilian trials. There is one person in the world incarcerated 
as a terrorist as a result of a military tribunal right now, 
hundreds because of the other and yet this question persists 
and persists and persists and persists and persists.
    It seems to be the only talking point on the other side of 
the aisle. And because so much of it is fallacious, we then 
have to respond in order to try to clear up the record and then 
this whole hearing turns into a focus on a point for which none 
of these gentlemen would need to be here and that really does 
not bear as significantly as other issues, I think, on the 
responsibilities that they have to discharge.
    So I say that and I will move to another issue, which is 
your report, Director Blair, leads off with a discussion of the 
risk of cyber attack to the country. And I want to read a 
couple of statements from a recent article in Foreign Policy 
magazine by Josh Rogin. He reported that senior U.S. military 
officials believe, ``the Chinese government is supporting 
hackers that attack anything and everything in the national 
security infrastructure on a constant basis.''
    He continues, ``the Defense Department has said that the 
Chinese government, in addition to employing thousands of its 
own hackers, manages massive teams of experts from academia and 
industry in cyber militias that act in Chinese national 
interest with unclear amounts of support and direction from 
Chinese Peoples Liberation Army.''
    It seems that the analogy in cyber warfare goes back to the 
ancient days of naval combat when nations not only sent out 
ships under their own flag to engage in warfare but also 
offered to private ship owners, to pirates, indeed, letters of 
mark to go out and act in that nation's interest.
    What do you believe are the most important structural 
deficits that we have and need to fix in dealing with state-
sponsored cyber attacks on our country that either come through 
false legs or are hidden behind work stations that are located 
all around the world in order to be able to deter these 
attacks?
    And, if it makes a difference, could you distinguish 
between what Mr. Rogin referred to as hackers that attack 
anything and everything in the national security infrastructure 
on a constant basis and the brain drain that we face from 
wholesale industrial espionage--stealing our manufacturing and 
technological secrets so that competitors abroad can take 
advantage of them without paying for the intellectual property 
they have stolen.
    Director Blair. Senator Whitehouse, the individual skills 
of a single hacker, whether he is doing it for fun or paid off 
by a criminal or employed by an intelligence service of another 
country, you can have really ace hackers under all three of 
those scenarios. The advantage of a government or the 
characteristics of government-sponsored attacks are more the 
focus on what they do and the ability to put it together with 
other forms of intelligence--spies and humans that they can 
use, not just sitting there at the keyboard. Criminals can do 
some of that, individual hackers generally don't.
    So the nature of this threat is pretty much the same no 
matter who is doing it. It's just the resources they have to 
put against it.
    Senator Whitehouse. Those resources can matter a lot when 
it ends up to thousands or even tens of thousands of attacks 
daily and weekly.
    Director Blair. Absolutely. And that brings me to the 
second point which is that, as I said in my statement, the 
general level of our defenses is just not good enough for 
either the monetary value or the intrinsic value of what we 
keep on the Net--intellectual property and so on. Now, our big 
international central banks that send billions of dollars 
across wires in networked systems have developed tough 
defenses. And they spent a lot of money on them and they put a 
lot of people on them. They continually check them and they can 
have high confidence that they can be secure against 
outsiders--an insider is still a threat.
    There are many transactions that involve extremely powerful 
information and which people seem to think that a relatively 
simple password is enough to protect. And even a moderate 
hacker can get into files in major companies in lots of 
commercial areas that are not protected at all.
    So I think we simply have to raise the game, spend more 
money which is proportionate to what we're protecting rather 
than just making it an add-on thing. Do more training of people 
so that they are more skilled and take advantage of the 
techniques that are available there if we just put them in and 
apply them.
    I'd say if we do that, we would be up at the 90, 95 percent 
level of protection and after that, it would take a very 
skilled, determined, resourced, timely attack in order to get 
in. But a lot of extremely valuable things are available 
through very, very unsophisticated hackers who just do brute 
force methods. And they can be criminals or hackers or they can 
be government agents.
    Senator Whitehouse. Thank you, Director. My time has 
expired.
    Chairman Feinstein. Thank you very much, Senator 
Whitehouse.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair, and thank you to all 
of you for your service to our country.
    We've had a number of closed sessions on the Christmas Day 
attack but I'd like to talk about a couple of issues in public 
to get actually on the record what I think the country is 
especially concerned about. My sense is that the intelligence 
community does a good job collecting intelligence but has a 
harder time integrating it and analyzing it.
    And you all have talked about a number of steps through the 
course of the afternoon. Director Panetta, you talked about how 
people like Mr. Abdulmutallab are going to be looking for other 
opportunities. And here's my question, and I want to ask this 
of you, Director Blair. If the events leading up to Mr. 
Abdulmutallab's attempted attack were repeated over the next 
several months, how confident are you now that a new Mr. 
Abdulmutallab would be identified as a threat before he boarded 
an airplane bound for the United States?
    Director Blair. Senator Wyden, I'm confident that someone 
who left the trail that Mr. Abdulmutallab did would now be 
found. Even in the month since the 25th of December, we have 
added human resources--we put more people on the problem, we've 
assigned them more specifically, and we've made some more tools 
available that would catch an Abdulmutallab.
    What I can't tell you is that even with these improvements 
we would be able to catch someone who took more care in--I'd 
rather not talk about it in open session--but someone who is 
more careful, more skilled, could still leave an intelligence 
trail that we would have a hard time----
    Senator Wyden. But you could provide the assurance to the 
American people--because this is why I wanted to ask it in 
public--that with the additional resources, with your effort to 
unpack everything that took place, you are now significantly 
more confident that another Mr. Abdulmutallab would be 
apprehended before he got on the plane.
    Director Blair [continuing]. Yes, sir.
    Senator Wyden. Okay. Director Mueller, if I could, I wanted 
to ask you about this homegrown al-Qa'ida and terrorist threat, 
and certainly, when you look at some of the high-profile 
arrests that the FBI has made over the past year of people like 
Headley and Mr. Zazi, this is something also very much on 
people's mind. You touched on it in your statement: How serious 
do you believe the threat of a homegrown al-Qa'ida threat is 
today?
    Director Mueller. I think it's a very serious threat and 
increasing, principally because of the enhanced use of the 
Internet to radicalize and to be utilized to coordinate 
actions. And so with the growth of the Internet, so too has 
grown the threat domestically. If you look at individuals like 
Samadi in Dallas, he was radicalized by the Internet; the 
individual up in Springfield; individuals in Charlotte. The 
homegrown radicalization by those who were radicalized in the 
United States who do not and have not traveled overseas for 
training has grown over the last several years.
    Senator Wyden. Are you more concerned about al-Qa'ida 
terrorists coming from inside the United States now or from 
outside?
    Director Mueller. I'm equally concerned about--probably 
both are about the same level of concern. I do think that the 
attacks undertaken by individuals who have some association or 
training overseas tend to be more of a threat in terms of the 
capabilities than some of the threats that we've seen 
domestically. And so it is the training, the enhanced 
capabilities that come for persons traveling overseas and then 
coming back that would make any terrorist attack a more 
substantial terrorist attack in most cases than undertaken by a 
lone individual in the United States.
    Senator Wyden. Let me just close the loop on this. So you 
think it's a serious threat and would you say it's as 
significant threat as you see, say, in Great Britain?
    Director Mueller. I think to a certain extent, in some 
areas, we share the same concerns as Great Britain. And by 
that, I mean places like Somalia and Yemen and the ability of 
terrorists in those countries to identify individuals who can 
be trained in either Somalia, Yemen or Pakistan and then travel 
back to the U.K. or the United States, we have somewhat the 
same problems--particularly with Somali youth, individuals, we 
found last year who were traveling to Somalia and coming back 
to the United States.
    On the other hand, the U.K. has, I believe, a stronger 
network of individuals who have been radicalized with close 
ties to South Asia--stronger ties to South Asia than you'll 
find here in the United States--which presents a different 
threat to the U.K. than it does to us.
    Senator Wyden. Let me turn to one other subject for you, 
Director Panetta. Do you or any of your associates have an 
estimate about what it would take to drive al-Qa'ida out of the 
Pakistani tribal areas? I think I want to touch briefly on the 
question of Pakistan, and what is your assessment of what it 
would take to drive al-Qa'ida out of that area.
    Director Panetta. Senator Wyden, I've asked that question a 
number of times because obviously our operations are very 
aggressive and very directed and, as I said, are very effective 
with regards to disrupting their operations. Having said that, 
the reality is that they continue to operate; they continue to 
move within the FATA and the tribal areas. I would just share 
with you that I think to effectively be able to disrupt al-
Qa'ida and to end their threat we need to have boots on the 
ground in addition to our operations.
    Senator Wyden. One last question if I might, Madam Chair. 
What else, Director Panetta, could the Pakistani government do 
if Pakistani leaders wanted to provide more assistance on 
counterterrorism issues?
    Director Panetta. Just what I said, which is boots on the 
ground. They, in fact, went into South Waziristan. That was 
very effective on bringing pressure on these groups. They had 
to move; they had to scramble. That helped us in terms of our 
operations. We need them to continue that effort.
    Senator Wyden. Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Wyden.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair, and thank you all 
for being here today.
    I just want to be clear because this is obviously a 
profound concern and I share the sentiments expressed by my 
colleague, Senator Bond, about the whole issue and issuing of 
Miranda rights to a terrorist on Christmas Day. And I think the 
American people need to have reassurances as well in terms of 
what is going to change as a result, you know, of what 
happened, and what is going to be the process going forward?
    Because it seems to me, in this instance, it clearly should 
have commanded the attention at the highest levels in the 
intelligence community about whether further questions should 
be posed to this individual to be certain that the questions 
being posed were based on all of the information regarding al-
Qa'ida in Yemen, for example, about this individual, and 
putting it all together before issuing his Miranda rights.
    And I think that's what's so disturbing here because that 
did not occur, so it didn't seem to me, and I don't think it 
seemed to the American people, that there was a cohesive, 
concerted effort and determination based on all of the 
information that had been gathered in highly-classified 
settings regarding al-Qa'ida in Yemen and, of course, this 
individual and any associates, and whether or not there was 
vital information that needed to be gleaned. And we won't know 
that now.
    And furthermore, the administration had said they were 
setting up in a group called the high-value detainee 
interrogation group precisely for this type of circumstance. 
Has that been done? And why wasn't that done? And how are we 
going forward?
    How is the intelligence community going to move forward 
based on this particular situation that really does cast a 
shadow? Because we won't ever know about what could have been 
elicited from this individual because of who posed the 
questions, frankly. You weren't consulted, Director Blair, at 
the highest level, for any questions that should have been 
posed to this individual. And it seems to me it should have 
warranted consultation with you and others to be sure under 
this circumstance.
    Director Blair. Yes, Senator Snowe, if we'd known all we 
needed to know about Mr. Abdulmutallab, he wouldn't have been 
on the airplane. It was a pop-up. There were extraordinary time 
pressures on Christmas Day. I said to another committee that 
the process of bringing together intelligence and skilled 
interrogators, in the light of how we want to prosecute 
somebody, is the absolute key thing. A form of that was done on 
Christmas Day. The Joint Task Force FBI agents asked good 
questions. I've read the intelligence reports that they put out 
and they were good.
    We have taken advantage of the time we now have in order to 
bring the full intelligence expertise into the support of the 
FBI, in this case, which will--we hope--bring even more 
intelligence which we can use. We have this high-value 
interrogation team building the file so that when we get 
somebody that we know about, probably overseas, we can have 
done a lot of that homework that Senator Bond referred to 
first.
    So the principle of using intelligence, using good 
interrogators, making sure that we are taking the steps we need 
to get them behind bars in the most effective way are what we 
need to bring together. And we just need to do that fast and 
the right way.
    Director Mueller. I understand the concern in terms of the 
public's understanding of what happened on Christmas Day. I 
also share your concern that in doing a thorough interrogation 
you have the input from a number of sources, the background, 
the preparation and the like. But it also is important to 
obtain the facts as soon as you can and the time frame as such 
that you do not have the opportunity to do that background such 
as you would like.
    There were very fast-moving events on Christmas Day. We 
took advantage--and I say ``we''--the FBI took advantage, in my 
mind, of the opportunities to gather that intelligence as 
quickly as we could under the constraints that we operate in 
and with a person who is arrested in the United States.
    I, along with Director Blair and Director Panetta, believe 
that teams of individuals with the appropriate background 
should be deployed to do interrogations. And the protocol has 
been established, has been set up, but we have not waited for 
that protocol. We have utilized those teams already. With 
Headley, for instance, in Chicago, we had a team of individuals 
who were doing the follow-up questioning of him with expertise 
from a variety of areas, and there we had the luxury of time in 
order to do it.
    We have teams established that will be ready to go, in 
terms of--or in the instance where we will pick up somebody in 
a particular area of the world--where we will have teams, and 
do have teams, ready to go to undertake those interrogations. 
So we have done a lot in terms of putting together these teams 
to interrogate. But you also have to look at what happened on 
Christmas Day in the confines of trying to get intelligence on 
that day as to what was the immediate threat that the American 
public faced.
    Senator Snowe. So what was the fast-moving event of that 
day that necessitated issuing his Miranda rights? I'm not clear 
on that. What was the rush and the extraordinary pressures that 
were being faced?
    Director Mueller. Well, first of all, we had to determine 
whether there were any--in the initial interview, we had to 
determine whether there were other bombs on the plane, whether 
there were other planes that had similar attacks contemplated, 
wanted to understand who the bomb maker was, who had directed 
him. All of that came in the first series of questions.
    Later that night, we had another opportunity to interview 
him, and I believe that at that time, not only would we be able 
to interview him, but we would interview him in the way that we 
could utilize his statements to assure his successful 
prosecution, understanding that we have the obligation to take 
the individual before a magistrate without undue delay, which 
would mean he'd go before a magistrate within the next 24 
hours. So we sought to take advantage of that time to undertake 
the interrogations we could with the evidence we gathered at 
hand.
    Senator Snowe. But why wouldn't it have been--I guess I'm 
still not clear, because I don't understand why we'd want to 
issue the Miranda rights when we're worried about whatever 
other subsequent events that might be occurring.
    Director Mueller. Because we also want to utilize his 
statements to effectively prosecute him.
    Senator Snowe. Well, you know, I just profoundly disagree 
with that. I think most people do, given those circumstances. 
It just doesn't seem to me to make sense. And frankly, not 
having the collective weight on the intelligence community to 
really zero in on this particular individual at this moment in 
time is really disconcerting and troubling, and I think that's 
the point.
    Director Mueller. Now, let me just add one other point, and 
that is, it is a continuum. In other words, you can look at it 
in that day, but I encourage you to look at what has happened 
since then. And it is a continuum in which, over a period of 
time, we have been successful in obtaining intelligence not 
just on day one, but day two, day three, day four, day five and 
down the road. And so I encourage you to look at it as a 
continuum as opposed to looking at it as a snapshot of what 
happened on one day.
    Senator Snowe. Thank you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Risch.
    Senator Risch. Thank you. First of all, Senator Snowe is 
right, and I'm going to come back to that in just a minute. But 
I want to engage in the political sparring that we've had here, 
briefly, to start with.
    First of all, I think the questions by my colleague from 
Oregon were very on point, wanting to know if the American 
people can be assured that somebody like Mr. Abdulmutallab will 
not be allowed on a plane again. And I have every confidence 
that you guys are right, that you've got it figured out, that 
this isn't going to happen. Unfortunately, most people that, if 
they're going to do this again, they won't have a guy with the 
credentials that this guy's got. There's a million people out 
there that have no record, and you won't see it again. But it's 
important.
    As far as the Article III trial, I don't understand it and 
I don't--you know, whether Bush did it or Reagan did it or this 
President did it, when it comes to a combatant, they're all 
wrong on this. Article III courts were put together for the 
protection of the United States citizen. It is expensive to try 
someone in an Article III court. It is a great protection that 
most of the world doesn't have. Certainly, people that come 
here that are foreigners that attacked us are not entitled to 
an Article III trial. So I don't care who made the decision, 
what party they're in; they're dead wrong on that.
    Guantanamo--yeah, it's a political issue only because it 
became a political issue during the last campaign. Every one of 
us here has met with people from the Arab world and what-have-
you. The flashpoint for them is not Guantanamo; it's Israel, as 
was pointed out. And I'd like to associate myself with remarks 
from Senator Hatch.
    Let's talk about Miranda for a minute. Let me try to put 
this in perspective for you. I used to be a prosecutor--in 
fact, I was a prosecutor when Miranda was decided. We all 
thought it was the end of the world. It turned out it wasn't. 
But we learned a lot of things from it. Miranda simply--the 
court said look, in America, we are not an inquisitorial 
criminal process, we are an accusatorial criminal process. That 
means the government's got to accuse you, they've got to prove 
it and you don't have to come up with any information to help 
them do it. That's what Miranda was all about.
    Again, it was done for the protection of United States 
citizens living under the United States Constitution, and not 
for foreigners. Miranda is simply an exclusionary rule. Now, I 
think most people in this room know what an exclusionary rule 
is. You don't go to jail if you're a police officer because you 
don't Mirandize someone. The case doesn't get thrown out 
because you don't Mirandize someone. The only thing that 
Miranda does is it excludes any evidence that the police got 
because they didn't give the guy his Miranda warning.
    All right, let's take the Christmas Day bomber. Somebody 
tell me why he had to be given his Miranda warnings. With all 
due respect, Mr. Mueller--and by the way, thank you for what 
you do. You guys have tough jobs and I appreciate it--but with 
all due respect, you didn't need to give this guy Miranda in 
order to have a legitimate criminal prosecution. You had 200 
witnesses that saw what he did. You didn't need a confession 
from the guy.
    And anything you got out of him, if you didn't Mirandize 
him, couldn't be used in a court of law, but who cares? You've 
got all kinds of eyewitnesses; you were going to convict him. I 
would hope you'd go back and look at this again and understand 
that the Miranda rule is simply an exclusionary rule.
    Number one, if you're not going to try him in an Article 
III court you don't need to Miranda him. And number two, if 
you've got all the evidence you need, you don't need to Miranda 
him. Go ahead and interrogate this guy until the cows come home 
because it doesn't matter.
    What you want that for is you want it for intelligence, and 
if whatever he says never sees the light of day in a courtroom, 
who cares? This guy is going to get convicted. But with all due 
respect, I think you lost some information that could have been 
very, very valuable to the American people.
    And with that, thank you very much, Madam Chairman. And 
there's a couple minutes left, so maybe, Mr. Blair, you're in 
the middle seat; do you want to comment on that.
    Director Blair. I find the intelligence committee has an 
awful lot of former prosecutors on it but I think that the 
balance that we're trying to strike--it's interesting, I hear 
these same conversations inside the executive branch when we 
have our meetings on the same subjects. I mean, these are not 
easy matters and somebody would have found the absolute perfect 
way to balance the prosecution and intelligence value before 
now if it had been right there.
    So I'd just say these are balance cases and we can talk 
about individual ones, but we need to keep all the tools out 
there, we need a process to think them through, we need to take 
advantage of whatever time we have and the circumstances of the 
case, and try to do the best thing.
    Senator Risch. Well, Mr. Blair, let me disagree with you, 
as far as this being a balancing matter. This is not a 
balancing matter. The question is, whatever I get out of this 
guy, do I need it in a court of law? If you don't need it in a 
court of law, there's no balance that's necessary or anything 
else. I mean, there's no reason--I mean, just think about this 
guy. He came from a foreign country and he wasn't able to 
accomplish what he wants, so he gets drug into the room by 
American authorities and he's sitting there thinking, geez, I 
wonder what's coming next. You know, I don't know what these 
guys do, but I bet it isn't pretty.
    And somebody comes in and says, by the way, we're going to 
give you a lawyer if you'd like one. This guy says, have I died 
and gone to heaven? You know, I mean, of course he's going to 
shut up. When you tell him don't say anything until you talk to 
a lawyer and we're going to give you a free one, of course, 
he's going to do that. With all due respect, this is not 
difficult. It's really simple. Do you need the statement in 
court or do you not need the statement in court? And if you 
don't, wring everything you can out of that guy.
    Madam Chairman, I'm done.
    Director Mueller. May I just add one thing?
    Chairman Feinstein. Yes, you may, Mr. Mueller.
    Director Mueller. I don't disagree with what you said, 
Senator, but I will say that you are looking at it in the rear 
mirror. And the decisions that are made--you are assuming that, 
at the point in time decisions are made, we have a full 
understanding of the case that we have against him. And this is 
but five, six hours afterwards--four or five hours after he's 
gotten off the plane.
    And so I don't disagree with a lot you say, but by the same 
token, you're looking at it in the rear-view mirror. And if you 
put yourself at the time and the decisions that you have to 
make at that time, you may come down on the other side.
    Senator Risch. And Mr. Mueller, I don't disagree with that. 
But in this case, I'll bet you guys had talked to about a half 
a dozen people that saw exactly what he did and knew you had an 
airtight case against this guy.
    Director Mueller. Sir, we were out interviewing that 
afternoon the passengers from the plane. But the results of 
those interviews, we don't get until late that night or the 
following day. The first information we have off the plane, 
when our agents are out there, is saying an individual has set 
off some firecrackers on the plane. And that's the first 
information we have. And so, as you well know as a prosecutor, 
as the day goes forward and the events, that you get pieces of 
information at a particular point in time.
    The other point I would make is that, again, as I made it 
with Senator Snowe, is this is a continuum over a period of 
time. And what happens on that day happens on that day. But do 
not discount what has happened or what does happen after that 
in terms of gaining that intelligence.
    Senator Risch. And that's fair. Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Feingold, you're up.
    Senator Feingold. I thank the Chair. I have a statement 
that I ask be included in the record.
    Chairman Feinstein. Without objection.
    Senator Feingold. In light of the discussion this 
afternoon, I want to note my strong support for the decision to 
try Khalid Shaykh Mohammed and Abdulmutallab in federal court. 
It's a decision that I think actually demonstrates our national 
strength.
    Director Blair, on January 7th, White House 
Counterterrorism Advisor John Brennan acknowledged, ``we didn't 
know that AQAP had progressed to the point of actually 
launching individuals here.'' Do you agree with that statement?
    Director Blair. Senator, we had some information that they 
had ambitions to attack the United States before that point.
    Senator Feingold. You know, this strikes me as an area of 
strategic intelligence and perhaps a failure of strategic 
intelligence.
    And it's important, I think, that we acknowledge and 
address that as part of this even as we simultaneously work on 
how to improve the so-called connect-the-dots tactical 
capabilities. I just think it's important to see that as part 
of what happened.
    CT Advisor Brennan also said that al-Qa'ida is looking in 
Africa for recruits and that the government is very concerned 
about this and is following up. I'd ask both Directors Blair 
and Panetta, where in Africa do you see this occurring? And are 
you concerned? Do we have a good enough handle on this threat 
continent-wide?
    Director Panetta. The areas of principal concern are 
Somalia and we have intelligence that obviously there are 
individuals that are going to Somalia--in some cases, U.S. 
citizens that are going to Somalia and that are involved in 
training camps there. And that's one area of concern. Yemen is 
another area of concern, as is obvious. And, again, there al-
Qa'ida has a presence and we have strong intelligence that is 
trying to target those individuals. More importantly, we have 
intelligence that indicates that there is a continuing effort 
to try to recruit somebody to institute some kind of attack on 
the United States.
    Director Blair. Senator Feingold, I think you're familiar 
with the organization al-Qa'ida in the Maghreb, which is based 
in Western Africa. And I think what we're learning is that this 
really is a syndicate al-Qa'ida in South Asia, Yemen, other 
places, and that they--in ways that we don't entirely 
understand--pass people from one to the other. Abdulmutallab 
was a Nigerian; 70 million Muslims, generally moderate, in 
Nigeria. But obviously, there is a number who can be 
radicalized to the point that he was.
    So what I'm finding is to put them into geographic 
pigeonholes is kind of limiting our vision. And maybe that was 
part of the limited vision that we had before.
    Senator Feingold. Well, I think that's exactly right, Mr. 
Director. And I appreciate your adding that to the items that 
Director Panetta mentioned. I tried to talk today to the 
Secretary of State about the countries in Western Africa where 
drug trade, perhaps from Latin America, is perhaps being 
connected up with these things. And of course, your reference 
to al-Qa'ida in the Islamic Maghreb is absolutely right in 
terms of Northern Africa.
    So I guess I go back just to comment, do we have the 
resources? Do we have the capacity to follow this? These are 
incredibly vast areas. And the conditions that allow al-Qa'ida 
to recruit in Africa are exactly the kind of problems that I 
think demand broader reform of the sort that I have proposed 
and this committee and the Senate have already approved. And 
I'm hoping that that can be completed and undertaken in terms 
of a commission in the near future. Until we integrate the 
intelligence community with the ways we openly gather 
information, radicalization, I think, we'll keep being one step 
behind al-Qa'ida.
    We also need counterterrorism policies that are informed by 
what is actually happening in these countries. Last year, the 
State Department concluded that the al-Houthi rebellion in 
Yemen was distracting the government from counterterrorism. Do 
the witnesses have any concerns that Sana'a's recent interest 
in CT will not be sustained or that fighting the rebellion 
they're dealing with, the southern secessionists, will be 
competing priorities?
    Director Panetta.
    Director Panetta. Senator, the situation in Yemen remains a 
volatile situation. And although we have gotten strong support 
from President Salih to go after targets and to share 
opportunities to ensure that we are working together, he is 
besieged by the Houthi situation on the border. He's besieged 
by what's happening in the south and the potential that they 
might divide from his country. So there are a series of 
problems there that could very well consume him. This is not a 
clear-cut situation in terms of having his support.
    Senator Feingold. Thank you. Director Blair, your prepared 
testimony is refreshingly candid about Pakistan's continued 
support for militant proxies and about the assistance provided 
by some of those groups to al-Qa'ida. You also indicated that 
Pakistan's actions are motivated by a desire, of course, to 
counter India, which makes Pakistan's strategic view of India 
central to our national security.
    I'm not convinced that the U.S. military operations in 
Afghanistan are going to actually change Islamabad's 
calculations in this regard. Isn't something else going to have 
to happen to alter how Pakistan has looked at the region for 
the past 60 years?
    Director Blair. Senator, in conversations with Pakistani 
officials and through assessing them with intelligence experts, 
we think that that historical foundation that you cite 
certainly provides the foundation and the heritage of what they 
go into these decisions with. But they are constantly 
reevaluating what is happening on their western border.
    What I think General Kayani, for example, one of the key 
leaders, said yesterday that what he sees as important in 
Afghanistan is that it be a friendly state and stable state. 
And he has offered, for example, training to Afghanistan armed 
forces in order to achieve that. So while the Pakistani threat 
coming from India is historically well-grounded and lies at the 
core of Pakistan's concern, I think they are realistic in terms 
of looking around and seeing how do they best carry out their 
interests in that framework.
    Senator Feingold. I thank you all.
    Chairman Feinstein. I think we should probably begin to 
wrap it up. There may be some additional questions. All right, 
Mr. Vice Chairman, why don't you go ahead and then I'll wrap it 
up.
    Vice Chairman Bond. Okay, just a couple quick things. I 
admit to having been on the government and the defense side in 
a few criminal cases, limited manner, but I do associate myself 
with the country lawyer from Idaho. Not only are there problems 
with the trial, but I also recall Khalid Shaykh Mohammed, when 
arrested, said something like, my lawyer and I will see you in 
New York. So if he were to be tried in New York, which 
apparently not, it would be granting his greatest wish.
    Now, turning to Gitmo, it was always my understanding that 
the many detainees in Gitmo were never intended to come to the 
United States for trial. That's why we worked, in 2007 and 
2009, to get the military tribunals properly established.
    Now, moving along, Mr. Director, I was very disappointed--I 
wrote you a month and a half ago asking the recidivism numbers 
for the past year detainees returning to terrorism to be made 
public. I first got my answer via the media last night, when 
the letter from White House Advisor Brennan was sent to the 
House Speaker, which stated openly what we've known, that the 
recidivism rate was 20 percent.
    He went on to note that all those were from the previous 
administration. But putting aside all that, and the fact that 
it took us a long time to get that answer, number one, I hope 
that the information will be forthcoming on a regular basis in 
the future. When I ask a question, I'd like to hear from you in 
a more timely manner. But I do know that the detainees released 
prior to 2009 were judged to be the very most rehabable or most 
subject to rehabilitation detainees they had.
    So I don't believe it takes a rocket scientist to realize 
that letting any more go would heighten the risk. Do you have 
any reason to believe that additional detainees will not go 
through the so-called rehab programs, or come back with 
additional information they can use to plan and execute 
terrorist attacks against the United States?
    Director Blair. I think you're absolutely correct on this, 
Vice Chairman, that the 500-odd detainees who had been released 
before last year, and then the 120-some-odd that have been 
designated for release since then are probably easier cases. 
And I've been personally going through some of these harder 
cases, and there's a fairly large number of them that we 
shouldn't----
    Vice Chairman Bond. I would hope they would not be 
released.
    Director Blair [continuing]. Yes, sir.
    Vice Chairman Bond. Now, moving to the high-value detainee 
interrogation group that everybody's calling HIG for short, 
when will the document be finalized and the committee get a 
copy of it, and have this operation in place?
    Director Blair. Sir, the charter--I've signed off on the 
charter, so it should--it requires a number of sign-offs around 
the government. I'll look at when it would be available, but 
it's moving along, and, as Director Mueller said, we are using 
the components that we expect will coalesce into a HIG right 
now.
    Vice Chairman Bond. But as I understand it from the 
executive order, that the HIG is actually under control of the 
White House through the National Security Council. Is that 
correct?
    Director Blair. The body that makes the decision on 
deploying it is in the White House with representatives from 
everybody at this table.
    Vice Chairman Bond. But it's the National Security Council. 
If Usama bin Ladin were captured tomorrow, would the HIG 
interrogate him? Would he be read his Miranda rights?
    Director Blair. If Usama bin Ladin were captured, I would 
very much hope that the HIG would interrogate him and squeeze 
all the information out of him----
    Vice Chairman Bond. Prior to Mirandizing him.
    Director Blair [continuing]. I'm not going to talk about 
the----
    Vice Chairman Bond. Director Panetta, to what extent is the 
CIA in the interrogation business at all? I've talked to 
colleagues who've gone overseas and met with commanding 
officers who, when asked about who can interrogate them, bring 
their lawyer in to give an answer because they don't seem to 
know. Does the CIA have any role in interrogation? If so, what 
is it?
    Director Panetta. Yes, Senator, we are engaged with these 
teams, and what we bring is obviously the intelligence value 
associated with whoever is being interrogated. But we do 
participate in those kinds of interrogations.
    Vice Chairman Bond. So you've been participating in the 
HIG?
    Director Panetta. That's correct.
    Vice Chairman Bond. How long's that HIG been going?
    Director Panetta. Well, obviously, we have gone ahead and 
dispatched some of these teams with the CIA, with the FBI, in 
order to----
    Vice Chairman Bond. How long have they--I didn't know that 
the CIA or anybody else was interrogating people; how long has 
that been going on?
    Director Panetta [continuing]. Well, we're participating 
with the FBI.
    Vice Chairman Bond. Since when?
    Director Mueller. Last fall.
    Vice Chairman Bond. So you have been doing this----
    Director Mueller. I mean, we have been doing it in teams in 
anticipation of the formal signing of the document, but the 
concept has been in place since last fall and we have used it 
on a number of occasions.
    Director Blair. Senator, the CIA personnel are not the 
interrogators; they're the backup, aren't they, Director 
Panetta?
    Director Panetta. They're backup, but they are doing some 
of the interviewing.
    Chairman Feinstein. If I may, the HIG is operational and 
has been deployed, correct?
    Director Blair. Yes.
    Chairman Feinstein. Thank you. Senator Rockefeller, you had 
a comment and Senator Whitehouse, will you make a comment?
    Senator Rockefeller. I don't have a question, but just a 
comment because time is running out. The two things that I'd 
hoped to discuss here today, but which we won't have time to 
do--but we'll have plenty of time in the near future--is, 
number one, to meet the two greatest growing threats within our 
terrorist community. One has already been discussed, and that 
is the youth--I believe by you, Director Panetta--and that is 
that Abdulmutallab is--you know, he had no record; he was 
clean, had a 2-year visa.
    He started in when he was 22 years old. He was arrested 
when he was 23 years old. I see this as growing all across the 
world, including in our own country, obviously, because they 
are clean, because they cannot be traced. And for that reason, 
as Director Blair knows, it's a concern of mine that when these 
folks choose to travel and they pay in cash, and because they 
pay in cash, there's simply an interchange with somebody at an 
airport or a travel agent, nothing is known about them--just 
that they paid in cash and, you know, maybe checked luggage or 
maybe didn't.
    So there has to be a way, which we can work out, that when 
somebody pays in cash, that the person at the counter or the 
person at the travel agency asks questions, gets certain 
information from that person--Social Security number, telephone 
number, address, address where the person will be overseas. 
People won't like it. Airlines won't like asking those 
questions. They'll think it's a harassment upon them. But there 
is no other protection that I know of for people who have a 
paperless trail. So that's one thing that concerns me greatly.
    And the second one we've also talked about in other 
situations, and that is the fact that--I think I've read it in 
several books and plenty of articles--that, let's say that the 
entire operation of bringing down the twin towers cost al-
Qa'ida about $500,000 and that with all of the poppy activity, 
the corruption activity, the criminal gang activity which 
interrelates in with the Taliban in Pakistan, with the Taliban 
in Afghanistan, and with others. And they cross-fertilize at 
some point, because money is money. Also, so much money is 
contributed to this from foreign countries, and we all know who 
those foreign countries are.
    The question of chasing down the financing of terrorism is, 
to this Senator, a primary concern. I don't know how much is 
being done about it. I do know that--I think that they can sort 
of do a twin tower every three weeks, according to the amount 
of money they raise. And that may be just from the drug trade--
the narcotics--much less the other types of financial resources 
that are coming to them, just in overwhelming hundreds of 
millions of dollars, hundreds of millions of dollars.
    That has to be faced up to. And it's serious; it's hard; 
it's a hard thing to shut down because it's worldwide. You're 
dealing with different people; you're not necessarily dealing 
with the terrorists themselves. You're dealing with the people 
who facilitate. But now, they become equally dangerous. They 
enable. And that's scary.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator.
    Senator Whitehouse, you had a question?
    Senator Whitehouse. I believe that the Chairman in her 
opening remarks referenced the report that the committee is 
working on on cyber security. I believe that the extent to 
which the country is under cyber attack is under-appreciated by 
the public. And I would like to ask each of you for your 
cooperation with that report in making timely decisions about 
declassification so that we can, without compromising any 
national security information, present information in the 
report about the scale of the attack that we face in a 
meaningful way and in our time frame.
    I believe that will require some cooperation from you as 
declassifiers since nobody in the legislative branch of 
government is a declassifier and our procedures for 
declassifying information are so complex that I frankly believe 
that they have never actually been used.
    So it will require your cooperation and I'd just like to 
take this public opportunity to ask you for your cooperation in 
accomplishing that.
    Director Blair. Senator, we'll do that.
    And, Madam Chairman, if I can just clarify one thing in my 
exchange with Senator Feingold, I just had a chance to review 
the statement by Mr. Brennan that he mentioned. And we're not 
at odds. It's a distinction between strategic and tactical 
intelligence and we're both saying the same thing.
    Chairman Feinstein. Thank you very much. I'd like just to 
clarify my understanding. My understanding is that the high 
value detainee interrogation team is in fact operative, that it 
has been deployed and that it will participate in any future 
interrogation. Is that correct?
    Director Panetta. That's correct.
    Chairman Feinstein. Thank you, Mr. Panetta.
    It is also my understanding that Mr. Abdulmutallab has 
provided valuable information. Is that correct?
    Director Mueller. Yes.
    Chairman Feinstein. And that the interrogation continues 
despite the fact that he has been Mirandized.
    Director Mueller. Yes.
    Chairman Feinstein. It is also my information that the no-
fly list has been substantially augmented. Is that correct?
    Director Panetta. That's correct. We have added a number of 
names to the no-fly list.
    Chairman Feinstein. And can you discuss the definition for 
placement on the no-fly list? We discussed this and you read 
the definition, which took a Philadelphia lawyer to----
    Director Blair. Closed session. And we showed you the stack 
of paper which is required. And I think it's a case of practice 
and interpretation of those rules. And, as Director Panetta 
said, we are interpreting those more aggressively right now 
until we get a better handle on this situation with al-Qa'ida 
in the Arabian Peninsula.
    So it's within the same words written on the paper, but 
it's more aggressive and flexible in terms of actually getting 
more names on the list when we're in the gray area.
    Chairman Feinstein [continuing]. And it's my understanding 
that the views of a chief of station will be taken into 
consideration in terms of determining whether an individual 
should be placed on a no-fly list or a watch list. Is that 
correct, Mr. Panetta?
    Director Panetta. That's correct.
    Chairman Feinstein. I think that's very important. And I'm 
delighted to hear that. All right.
    I'd like to thank everybody. I'd like to thank you for your 
service to the country. I'd like to thank your staff that have 
worked on this. I know it's a very hard time and that the next 
six months are a difficult period. So the committee stands 
available to be of whatever help it can be.
    Vice Chairman Bond. I was going to say, before you closed, 
first, I join with the Chair in thanking you for your 
discussions. I believe, having been around here a little while, 
that when we have these open hearings, one of the most 
important things we can do is talk about issues that are 
important to the public. And while we've had very spirited 
debate on both sides, there is strong disagreement.
    I think the public wants to hear from you, from both sides 
of the aisle on our views on this. So I find this is a very, 
very helpful discussion. It's difficult because good friends 
are disagreeing. But I thank the Chair for having this in open 
hearing, and letting us pursue those.
    Number two, I've said that I believe that we have very 
strong interest on both sides of the aisle in making sure that 
cyber security is pursued as an intelligence matter, but that 
the American people understand just how dangerous these cyber 
attacks are for our personal bank accounts, credit cards, for 
the security of our infrastructure--power supply, water 
companies and all that--and for our national security.
    So when we find things that can be discussed openly, we 
will look forward to doing so.
    And finally, Madam Chair, I believe the record normally 
will stay open for a couple of days.
    Chairman Feinstein. It will stay open.
    Vice Chairman Bond. Surprisingly enough, I didn't even get 
through the questions. I would like to give our distinguished 
witnesses an opportunity to respond to some of the comments 
that have been made by former Attorney General, Mike Mukasey, 
who was the trial judge in the Blind Sheik and other cases. And 
I would like to get your reaction to those.
    But I thank you, Madam Chair, for putting up with this and 
having a very spirited, interesting debate.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman. 
Thank you, gentlemen. The hearing is adjourned.
    [Whereupon, at 5:05 p.m., the Committee adjourned.]
                         Supplemental Material

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Prepared Statement of Hon. Russ Feingold, a U.S. Senator from Wisconsin
    The Christmas Day attack on our country, by a regional al Qaeda 
affiliate in Yemen using an operative from Nigeria, underscored the 
global nature of the terrorist threat we face. If we are to stay ahead 
of al Qaeda, we must respond by improving our intelligence capabilities 
and developing better informed and more comprehensive counterterrorism 
strategies.
    First, we must maximize our ability to anticipate radicalization 
and the emergence of new terrorist safe havens by fully integrating our 
Intelligence Community with the ways in which our government gathers 
information openly around the world. I have proposed an independent 
commission to do just that, and the Senate Intelligence Committee and 
full Senate have approved this proposal.
    Second, we need counterterrorism strategies that take into account 
the local conflicts and conditions that allow al Qaeda to operate and 
that distract our partners from counterterrorism. That is why, last 
week, I joined with the chairmen of this committee and the Foreign 
Relations Committee to introduce a resolution requiring a comprehensive 
strategy for Yemen. In Somalia, the Sahel and elsewhere, our government 
needs to identify and tackle head-on the conditions that serve as an 
invitation to al Qaeda.
    Finally, we simply cannot afford our current military escalation in 
Afghanistan. It is not necessary to counter the fewer than one hundred 
al Qaeda fighters in Afghanistan, and it risks further destabilizing an 
already dangerous Pakistan. Instead, we must develop and support 
sustainable, global and effective counterterrorism strategies.
  

                                  <all>

</pre></body></html>
